No. _______

In the

Supreme Court of the United States
ZF AUTOMOTIVE US, INC., GERALD DEKKER, AND
CHRISTOPHE MARNAT,
Petitioners,
v.
LUXSHARE, LTD.,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
PETITION FOR A WRIT OF CERTIORARI
BEFORE JUDGMENT
Sean M. Berkowitz
LATHAM & WATKINS LLP
330 N. Wabash
Suite 2800
Chicago, IL 60611
Zachary L. Rowen
Justin S. Kirschner
LATHAM & WATKINS LLP
1271 Avenue of the
Americas
New York, NY 10020

Roman Martinez
Counsel of Record
Tyce R. Walters
LATHAM & WATKINS LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2200
roman.martinez@lw.com

Counsel for Petitioners

i
QUESTION PRESENTED
The question presented in this case is
substantively identical to the question presented in
Servotronics, Inc. v. Rolls-Royce PLC, No. 20-794 (oral
argument originally scheduled for Oct. 5, 2021; case
removed from oral argument calendar Sept. 8, 2021):
Whether 28 U.S.C. § 1782(a), which permits
litigants to invoke the authority of United States
courts to render assistance in gathering evidence for
use in “a foreign or international tribunal,”
encompasses private commercial arbitral tribunals,
as the U.S. Courts of Appeals for the Fourth and Sixth
Circuits have held, or excludes such tribunals, as the
U.S. Courts of Appeals for the Second, Fifth, and
Seventh Circuits have held.

ii
RULE 29.6 STATEMENT
Pursuant to Rule 29.6 of the Rules of this Court,
petitioner ZF Automotive US Inc. hereby states that
it is not a publicly traded company, it is owned by a
parent company ZF Friedrichshafen AG, and no
publicly held corporation owns 10% or more of its
stock, nor does any publicly held corporation own 10%
or more of the stock of ZF Friedrichshafen AG.

iii
LIST OF RELATED PROCEEDINGS
Pursuant to Supreme Court Rule 14.1(b)(iii),
petitioners state that there are no proceedings
directly related to this case in this Court.

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED ......................................... i
RULE 29.6 STATEMENT.......................................... ii
LIST OF RELATED PROCEEDINGS ..................... iii
TABLE OF AUTHORITIES ..................................... vi
PETITION FOR A WRIT OF CERTIORARI ............ 1
OPINIONS AND ORDERS BELOW ......................... 1
JURISDICTION ......................................................... 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED................................... 2
INTRODUCTION ...................................................... 2
STATEMENT OF THE CASE ................................... 6
A. The Parties And The Underlying
Transaction ...................................................... 6
B. Luxshare Commences The Section 1782
Action Years After The Transaction Closed ... 7
REASONS FOR GRANTING THE WRIT............... 13
Granting Certiorari Before Judgment Is The
Best Way To Resolve The Vital Question Of
Section 1782’s Scope If Servotronics Is
Dismissed ............................................................ 13
The Sixth Circuit’s Position Is Wrong ............... 19
CONCLUSION ......................................................... 24

v
TABLE OF CONTENTS—Continued
Page
APPENDIX
Order of the United States District Court for
the Eastern District of Michigan
Overruling Objections To Magistrate
Judge’s Order Granting In Part and
Denying In Part Respondents’ Motion To
Quash, Luxshare, Ltd. v. ZF Automotive
US, Inc., No. 2:20-mc-51245, 2021 WL
2705477 (E.D. Mich. July 1, 2021), Dkt.
No. 29 ..................................................................1a
Order Granting Ex Parte Application For An
Order Pursuant To 28 U.S.C. § 1782 To
Conduct Discovery For Use In Foreign
Proceedings (E.D. Mich. Oct. 22, 2020),
Dkt. No. 3 ..........................................................20a
Opinion and Order of the United States
District Court for the Eastern District of
Michigan Granting In Part and Denying In
Part Respondents’ Motion To Quash
Improper Subpoenas, Luxshare, Ltd. v. ZF
Automotive US, Inc., No. 2:20-mc-51245,
2021 WL 2154700 (E.D. Mich. May 27,
2021), Dkt. No. 26 .............................................22a
Opinion and Order of the United States
District Court for the Eastern District of
Michigan Denying Motion To Stay And
Granting Motion To Compel, Luxshare,
Ltd. v. ZF Automotive US, Inc., No. 20-mc51245, 2021 WL 3629899 (E.D. Mich. Aug.
17, 2021), Dkt. No. 38 .......................................57a
28 U.S.C. § 1782(a)..................................................70a

vi
TABLE OF AUTHORITIES
Page(s)
CASES
In re Application of Furstenberg Finance
SAS (Furstenberg Finance SAS v. Litai
Assets LLC),
877 F.3d 1031 (11th Cir. 2017)............................12
In re Application to Obtain Discovery for
Use in Foreign Proceedings (Abdul Latif
Jameel Transportation Co. v. FedEx
Corp.),
939 F.3d 710 (6th Cir. 2019)........................3, 8, 17
Bayer AG v. Betachem, Inc.,
173 F.3d 188 (3d Cir. 1999) .................................12
In re EWE Gasspeicher GmbH,
No. CV 19-mc-109-RGA, 2020 WL
1272612 (D. Del. Mar. 17, 2020), appeal
docketed, No. 20-1830 (3d Cir. Apr. 24,
2020) .....................................................................14
Gulf Oil Corp. v. Gilbert,
330 U.S. 501 (1947) ..............................................20
HRC-Hainan Holding Co., LLC v.
Yihan Hu,
No. 19-mc-80277-TSH, 2020 WL 906719
(N.D. Cal. Feb. 25, 2020), appeal
docketed, No. 20-15371 (9th Cir. Mar. 4,
2020) .....................................................................14
Intel Corp. v. Advanced Micro Devices, Inc.,
542 U.S. 241 (2004) ................................................8

vii
TABLE OF AUTHORITIES—Continued
Page(s)
In re Letters Rogatory Issued by the Director
of Inspection of the Government of India,
385 F.2d 1017 (2d Cir. 1967) ...............................12
National Broadcasting Co. v. Bear Stearns
& Co.,
165 F.3d 184 (2d Cir. 1999) .................................13
Porter v. Dicken,
328 U.S. 252 (1946) ..............................................19
Porter v. Lee,
328 U.S. 246 (1946) ..............................................19
Republic of Kazakhstan v. Biedermann
International,
168 F.3d 880 (5th Cir. 1999)................................13
Servotronics, Inc. v. Rolls-Royce PLC,
975 F.3d 689 (7th Cir. 2020), cert.
granted, 141 S. Ct. 1684 (2021) ............... 13, 22, 23
United States v. Global Fishing, Inc. (In re
Premises Located at 840 140th Ave. NE,
Bellevue, Washington),
634 F.3d 557 (9th Cir. 2011)................................12
INTERNATIONAL LAW
Bundesgerichtshof, 10 Nov. 2020, VI ZR
285/19 ...................................................................11
Bundesgerichtshof, 16 March 2009, II ZR
32/08 .....................................................................11

viii
TABLE OF AUTHORITIES—Continued
Page(s)
Bundesgerichtshof, 17 Dec. 2015, IX ZR
61/14 .....................................................................11
STATUTES
28 U.S.C. § 1254(1)......................................................2
28 U.S.C. § 1291 ........................................................12
28 U.S.C. § 1782 (1958) .............................................21
28 U.S.C. § 1782(a).................................. 1, 2, 3, 22, 23
Act of Mar. 3, 1863, ch. 95, 12 Stat. 769 ..................21
Act of Sept. 2, 1958, Pub. L. No. 85-906, 72
Stat. 1743 .............................................................21
OTHER AUTHORITIES
Jason Arendt, Comment, Authorization of
Discovery in International Commercial
Arbitration: Demystifying the Sixth
Circuit’s Statutory Construction of 28
U.S.C. § 1782(a), 9 Am. Univ. Bus. L.
Rev. 417 (2020) ....................................................15
Black’s Law Dictionary (4th ed. 1951) .....................20
Alejandro A. Nava Cuenca, Note,
Debunking the Myths: International
Commercial Arbitration and Section
1782(a), 46 Yale J. Int’l L. 155 (2021) .................15
Draft Convention on Judicial Assistance,
33 Am. J. Int’l L. 11 (1939) ..................................21

ix
TABLE OF AUTHORITIES—Continued
Page(s)
Fourth Annual Report of the Commission
on International Rules of Judicial
Procedure, H.R. Doc. No. 88, 88th Cong.,
1st Sess. (1963) ....................................................22
Oxford English Dictionary (1933, reprinted
1961) .....................................................................20
Recent Case, Statutory Interpretation—
Textualism—Sixth Circuit Holds That
Private Commercial Arbitration is a
Foreign or International Tribunal—In
re: Application to Obtain Discovery for
Use in Foreign Proceedings,
939 F.3d 710 (6th Cir. 2019), 133 Harv.
L. Rev. 2627 (2020) ..............................................15
Stephen M. Shapiro et al., Supreme Court
Practice (11th ed. 2019, online) .......................5, 19
Hans Smit, Assistance Rendered by the
United States in Proceedings Before
International Tribunals, 62 Colum. L.
Rev. 1264 (1962) ..................................................21
Sup. Ct. R. 11 ............................................................18
Yanbai Andrea Wang, Exporting American
Discovery, 87 U. Chi. L. Rev. 2089 (2020) ...........15
Webster’s Seventh New Collegiate
Dictionary (1963) .................................................20

PETITION FOR A WRIT OF CERTIORARI
Petitioners ZF Automotive US Inc., Gerald
Dekker, and Christophe Marnat respectfully petition
this Court for a writ of certiorari before judgment to
the United States Court of Appeals for the Sixth
Circuit, and seek reversal of the order of the United
States District Court for the Eastern District of
Michigan requiring petitioners to produce discovery
under 28 U.S.C. § 1782(a) (Section 1782).
OPINIONS AND ORDERS BELOW
The order of the district court granting the ex parte
application of respondent Luxshare, Ltd. to take
discovery under Section 1782 (App. 20a-21a), is not
reported. The order of the district court denying
petitioners’ motion to quash Luxshare’s Section 1782
subpoenas (App. 1a-19a), is also not reported but is
available at 2021 WL 2705477. The district court’s
order denying petitioners’ motion to stay and granting
Luxshare’s motion to compel production of discovery
(App. 57a-69a) is not reported but is available at 2021
WL 3629899.
JURISDICTION
The order of the district court denying the motion
to quash and ordering discovery was entered on July
1, 2021. App. 1a-19a. Petitioners filed a notice of
appeal on July 20, 2021. Dkt. No. 32.1 The
1

Citations to “Dkt. No. [#]” refer to documents filed below
in In re Application for an Order Pursuant to 28 U.S.C. § 1782 to
Conduct Discovery for Use in Foreign Proceedings, No. 2:20-mc51245 (E.D. Mich.). Citations to “CA6 ECF No. [#]” refer to
documents filed in Luxshare, Ltd. v. ZF Automotive US, Inc., No.
21-2736 (6th Cir.).

2
jurisdiction of this Court is invoked under 28 U.S.C.
§ 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Section 1782(a) of Title 28 provides, in relevant
part:
The district court of the district in which a
person resides or is found may order him to
give his testimony or statement or to
produce a document or other thing for use
in a proceeding in a foreign or international
tribunal, including criminal investigations
conducted before formal accusation. . . .
The order may prescribe the practice and
procedure, which may be in whole or part
the practice and procedure of the foreign
country or the international tribunal, for
taking the testimony or statement or
producing the document or other thing. To
the extent that the order does not prescribe
otherwise, the testimony or statement
shall be taken, and the document or other
thing produced, in accordance with the
Federal Rules of Civil Procedure.
28 U.S.C. § 1782(a).
INTRODUCTION
This case squarely presents the same legal
question currently pending before this Court in
Servotronics, Inc. v. Rolls-Royce PLC, No. 20-794 (oral
argument originally scheduled for Oct. 5, 2021; case
removed from oral argument calendar Sept. 8,
2021)—whether a private commercial arbitral panel

3
qualifies as a “foreign or international tribunal”
under Section 1782, which authorizes district courts
to compel testimony or evidence “for use in a
proceeding in a foreign or international tribunal.” 28
U.S.C. § 1782(a); see Servotronics Pet. i (filed Dec. 7,
2020). Unlike Servotronics, however, this case is free
from a potential jurisdictional hurdle: Whereas the
respondents in Servotronics have raised a substantial
concern that Servotronics is or soon will be moot—and
the petitioners have just indicated that they plan to
submit a motion for voluntary dismissal, see
Servotronics Letter of Sept. 8, 2021—this case
undeniably presents a live controversy. If, as seems
likely, Servotronics is dismissed, this case thus
presents an ideal vehicle by which the Court could
resolve the longstanding circuit split and determine—
once and for all—what Section 1782 means.
In both this case and Servotronics, one party
sought discovery that it intended to use before a
private arbitral panel against the other party. In
Servotronics, the Seventh Circuit rejected the request
for discovery, holding that Section 1782 does not allow
such discovery because a private arbitral panel is not
a “foreign or international tribunal.” Here, the
district court granted a virtually identical discovery
request based on binding Sixth Circuit precedent
holding that a private arbitral panel is a “foreign or
international tribunal.” App. 17a-19a (citing In re
Application to Obtain Discovery for Use in Foreign
Proceedings (Abdul Latif Jameel Transp. Co. v. FedEx
Corp.), 939 F.3d 710, 730 (6th Cir. 2019) (“Abdul
Latif”)). Petitioners in this case have appealed that
decision to the Sixth Circuit, which will be bound to
apply its prior decision in Abdul Latif, 939 F.3d at

4
717-31, holding that Section 1782 discovery is
potentially available.
This Court granted certiorari in Servotronics on
March 22, 2021, and on July 13, 2021 it scheduled oral
argument to be held on October 5, 2021. The
Servotronics briefing made clear, however, that there
exists a substantial question about whether that case
is—or will soon become—moot. Specifically, the
foreign arbitration hearing at issue in Servotronics
concluded months ago, and a final decision in that
proceeding may be imminent. The Servotronics
respondents thus contended that because the
evidentiary record is now closed, the petitioners have
no ongoing interest in obtaining the Section 1782
discovery they originally sought. Servotronics RollsRoyce Br. 12-14 (June 21, 2021); Servotronics Boeing
Br. 12-14 (June 21, 2021). On September 8, 2021,
petitioner in Servotronics notified this Court that it
intended to file a motion for voluntary dismissal
pursuant to Rule 46 of the Rules of this Court.
Servotronics Letter of Sept. 8, 2021. This Court
subsequently removed Servotronics from the October
2021 argument calendar.
If, as seems likely, the Court grants Servotronics’
motion for voluntary dismissal, it will be unable to use
that case to resolve the underlying question as to
whether Section 1782 applies to private foreign
arbitration proceedings. It will thereby leave intact
an entrenched circuit split separating the Fourth and
Sixth Circuits (which have said that Section 1782
does apply in such circumstances), from the Second,
Fifth, and Seventh Circuits (which have said it does
not). And a circuit split is particularly pernicious in
this context: As amici in Servotronics have explained,
“divergent approaches [between the circuits] may

5
disincentivize parties from entering into contractual
agreements to privately arbitrate disputes” in the
first place. See Servotronics Atlanta Int’l Arbitration
Soc’y Amicus Br. in Supp. of Cert. 9 (Jan. 11, 2021).
Courts and litigants thus have a strong interest in
having this Court clarify whether and how Section
1782 applies to foreign private arbitration
proceedings. That is presumably why this Court
granted review in Servotronics in the first place. But
if Servotronics is dismissed, the existing circuit
split—and the disuniformity and uncertainty it
engenders—will persist.
In these unusual circumstances, petitioners are
seeking a writ of certiorari before judgment.
Petitioners appreciate the atypical nature of this
request, but believe there is good cause to seek the
Court’s intervention at this time.
Petitioners
respectfully submit that this Court should follow its
prior practice of granting certiorari before judgment
“when a similar or identical question of constitutional
or other importance was before the Court in another
case,” and when granting review in the second case
would facilitate review of an important question
presented. Stephen M. Shapiro et al., Supreme Court
Practice § 4.20 (11th ed. 2019, online) (citing eleven
examples).
Granting the petition (or holding the petition,
pending the Court’s ultimate resolution of
Servotronics) would ensure that the Court is able to
definitively resolve the important question on which
it granted certiorari in Servotronics, regardless of the
likely dismissal of that case.
The proper
interpretation of Section 1782 has intractably divided
the federal courts of appeal, and only a decision by
this Court can ensure uniform application of this

6
important federal law. The Court should use this case
to ensure that this question receives an answer.2
STATEMENT OF THE CASE
A. The Parties
Transaction

And

The

Underlying

Petitioner ZF US is a Michigan-based automotive
parts manufacturer and an indirect subsidiary of ZF
Friedrichshafen AG (“ZF AG”), a German corporation
headquartered in Germany. Dkt. No. 6-4 at 1-2 (¶¶ 25). Petitioner Gerald Dekker was formerly a Vice
President at ZF US. Petitioner Christophe Marnat is
Chief Operations Officer and formerly Executive Vice
President of ZF US. Id. at 2 (¶ 6).
In August 2017, after several months of
negotiations and due diligence, ZF AG sold its Global
Body Control Systems business unit to Respondent
Luxshare, a Hong Kong limited liability company.
See id. at 2-3 (¶¶ 8, 11). The terms of the sale are
contained in a Master Purchase Agreement (“MPA”).
See Dkt. No. 6-2 at Exh. A. The MPA provides that it
is to be governed by German law, id. § 20.10.1, and
requires that all disputes:
shall be exclusively and finally settled by
three (3) arbitrators in accordance with the
Arbitration Rules of the German
Institution of Arbitration e.V. (DIS),
2

Petitioners are currently seeking a stay of the district
court’s discovery order with the Sixth Circuit, and the district
court recently specified that petitioners need not produce the
Section 1782 discovery until 14 days after the Sixth Circuit
resolves that stay request. See App. 68a-69a. If the Sixth Circuit
declines to grant a stay, petitioners will seek a stay from this
Court well before that 14-day period expires.

7
including the Supplementary Rules for
Expedited Proceedings, . . . without
recourse to the ordinary courts of law.
Id. § 20.10.2.
As relevant here, the DIS Rules chosen by the
parties place the DIS arbitral panel in charge of
taking evidence in its own proceedings, empowering
the panel to “on its own initiative, appoint experts, . . .
and order any party to produce or make available any
documents or electronically stored data.” See Dkt. No.
6-2 at Exh. B (2018 DIS Arbitration Rules, art. 28.2).
The parties are restricted to one written submission
and one oral hearing after opening pleadings, and the
arbitral panel is directed to make a final award within
six months from its formation, if possible. See id.
(Annex 4).
As Luxshare alleges, “[a]fter the [April 2018]
[c]losing” of its deal with ZF AG, it learned that ZF
US fraudulently concealed information during the
negotiation and diligence process. See Dkt. No. 1 at
9-10. Luxshare, however, did not raise any of these
fraud allegations in its many discussions with
individuals from ZF AG in the two-and-a-half years
that followed. See Dkt. No. 6-4 at Exh. 3 at 3-4 (¶ 12).
B. Luxshare Commences The Section 1782
Action Years After The Transaction
Closed
1. On October 16, 2020, more than two years after
the transaction’s closing, Luxshare filed an ex parte
application for discovery under Section 1782. See
Dkt. No. 1. Four days later, on October 22, 2020—and
without awaiting a response by petitioners—the
district court granted Luxshare’s application in a one-

8
page order, with no analysis of the applicable law. See
Dkt. No. 3. The following day, Luxshare served
petitioners with subpoenas. See Dkt. No. 6 at 7.
On December 4, 2020, petitioners timely moved to
quash the subpoenas on various grounds, including
that the application should have been denied in its
entirety. See Dkt. No. 6. Petitioners argued that
Luxshare’s application did not satisfy two of Section
1782’s statutory prerequisites—namely, the DIS
arbitration
was
not
“within
reasonable
contemplation,” and the arbitral panel was not a
“tribunal” within the meaning of Section 1782. See id.
at 9-11 & n.4. Although petitioners recognized that
the Sixth Circuit has held that a private arbitral body
qualifies as a Section 1782 tribunal, see Abdul Latif,
939 F.3d at 717-31, petitioners also noted there was a
circuit split on this issue. Petitioners thus preserved
their argument that the prospective DIS panel was
not a “tribunal,” consistent with the law in the
Second, Fifth, and Seventh Circuits, as well as
various district courts. See Dkt. No. 6 at 11-12 n.4.
Three days later, the petition for a writ of certiorari
was filed with this Court in Servotronics, presenting
the question whether a foreign private arbitral panel
is a Section 1782 “tribunal.” Servotronics Pet. i.
Petitioners further argued that even if Luxshare
had met Section 1782’s statutory prerequisites, the
subpoenas should still be quashed because the four
applicable discretionary factors weighed against
permitting such discovery. See Dkt. No. 6 at 12-25;
Dkt. No. 14 at 2-5; Intel Corp. v. Advanced Micro
Devices, Inc., 542 U.S. 241, 246-47 (2004)
(establishing factors). On February 24, 2021, the
magistrate judge held oral argument on petitioners’
motion to quash. There, petitioners again preserved

9
the argument that foreign private arbitrations are not
Section 1782 “tribunals,” in the event this Court
granted review in Servotronics. See Dkt. No. 25 at
6:20-8:5.
2. On March 22, 2021, this Court granted
certiorari in Servotronics, as to the question:
“Whether the discretion granted to district courts in
28 U.S.C. § 1782(a) to render assistance in gathering
evidence for use in ‘a foreign or international tribunal’
encompasses private commercial arbitral tribunals,
as the Fourth and Sixth Circuits have held, or
excludes such tribunals without expressing an
exclusionary intent, as the Second, Fifth, and, in the
case [at issue], the Seventh Circuit, have held.”
Servotronics Pet. i. The Court originally scheduled
oral argument in Servotronics for October 5, 2021, the
second day of its upcoming term.
In Servotronics, petitioner Servotronics seeks
Section 1782 discovery from respondents Boeing and
Rolls-Royce for use in a private arbitration in London.
Servotronics Pet. 2-6. The Seventh Circuit denied the
application for discovery, holding that Section 1782
was not available to obtain discovery for use in such
private arbitral proceedings. Id. at 5; Servotronics
Pet. App. 1a-16a.
In the two months following this Court’s grant of
review, the London arbitration proceedings for which
Servotronics sought its discovery continued to move
forward, culminating in a hearing that lasted from
May 10 to 21, 2021. See Servotronics Rolls-Royce Br.
8. In their merits briefs to this Court, both Boeing
and Rolls-Royce asserted as their primary argument
that the arbitral hearing’s conclusion renders the case
moot, and that in any event the case will undoubtedly
be moot once the arbitrators announce their final

10
decision (which could occur at any moment). Id. at 1214; Servotronics Boeing Br. 12-14. Presumably for
these reasons, Servotronics recently notified this
Court that it intended to file a motion for voluntary
dismissal, Servotronics Letter of Sept. 8, 2021. The
Court then removed the case from its argument
calendar.
3. Meanwhile, in the proceedings below,
petitioners here notified the district court of the grant
of certiorari in Servotronics. Dkt. No. 22. On May 27,
2021, the magistrate judge partially granted and
partially denied petitioners’ motion to quash. See
Dkt. No. 26. Specifically, it ordered ZF US and Mr.
Marnat to respond to their respective document
subpoenas, subject to certain limitations, and ordered
either Mr. Marnat or Mr. Dekker to sit for a
deposition. Id. at 28-35. Further, though no party
had briefed the issue, the magistrate judge expressly
declined to stay discovery pending Servotronics. Id.
at 25-27.
Petitioners timely objected to the magistrate
judge’s order. Dkt. No. 27. The district court
overruled petitioners’ objections.
Reviewing the
magistrate judge’s order under the deferential
“clearly erroneous or contrary to law” standard, the
district court deferred to the magistrate judge’s
assessment of the Intel factors. See App. 4a-17a
(citation omitted). The court also approved the
magistrate judge’s decision not to stay discovery
pending Servotronics. See id. at 17a-19a.
On July 12, 2021, petitioners’ counsel informed
Luxshare of their intent to appeal. See Dkt. No. 31-3
at 5. Recognizing Luxshare’s approaching deadline
for filing any arbitration, petitioners offered to agree
not to invoke the statute of limitations on Luxshare’s

11
putative claims before the DIS during the pendency of
petitioners’ appeal. Id. Luxshare rejected that
proposal. Id. at 2.3
On July 16, 2021, petitioners moved in the district
court under Federal Rule of Appellate Procedure 8 to
stay proceedings pending resolution of their appeal.
See Dkt. No. 30. In that motion, petitioners reiterated
their commitment not to invoke the statute of
limitations on Luxshare’s deadline to file its
arbitration if a stay were granted. Id. at 17; see supra
at 11 n.3. In response, Luxshare filed a motion to
compel the production of certain documents. See Dkt.
No. 31.
On August 17, 2021, the district court denied
petitioners’ motion for a stay pending appeal, and
simultaneously granted Luxshare’s motion to compel.
App. 57a-69a. The district court recognized, however,
that (1) petitioners had also sought a stay from the
Sixth Circuit; (2) there was “some legal basis for ZF
US to appeal and seek a stay given the state of the
3

German law is clear that invocation of the statute of
limitations is an affirmative defense that can be waived by a
defendant. Petitioners have committed to refraining from
raising that defense for any arbitration filed within four months
from the expiration of a stay entered by the Sixth Circuit, and if
necessary they will make the same commitment as to any stay
issued by this Court. See supra at 6 n.2. A party’s commitment
not to invoke the statute of limitations for a specific period of
time is fully enforceable. Bundesgerichtshof [BGH] [Federal
Court of Justice], 16 March 2009, II ZR 32/08, marginal number
22; 17 Dec. 2015, IX ZR 61/14, marginal number 42-43; 10 Nov.
2020, VI ZR 285/19, marginal number 15 (collectively available
at
https://www.bundesgerichtshof.de/DE/Entscheidungen/
entscheidungen_node.html; and certified English translations of
relevant excerpts provided to counsel for respondent with this
petition).

12
law in the Sixth Circuit and the fact that the issue is
pending before the Supreme Court”; and (3) ZF US
had “‘engaged in good-faith efforts to collect
responsive documents to be prepared to expeditiously
produce these documents.’” App. 68a-69a (citation
omitted). Accordingly, the district court specified that
petitioners need not produce any discovery to
Luxshare now, but would have 14 days after any
denial by the Sixth Circuit of the motion to stay to
produce the requested discovery. Id. at 69a.4

4

Shortly after petitioners’ filed their notice of appeal, the
Sixth Circuit issued an order for the parties to brief the question
of appellate jurisdiction, noting that discovery orders are
ordinarily not appealable absent the threat of contempt.
Petitioners accordingly briefed that issue, explaining that the
federal courts of appeals uniformly agree that in the unique
context of Section 1782, an order requiring the production of
discovery is “final” for purposes of 28 U.S.C. § 1291, because
“[o]nce the district court has ruled on the parties’ motions
concerning the evidentiary requests, there is no further case or
controversy before the district court.” In re Application of
Furstenberg Fin. SAS (Furstenberg Fin. SAS v. Litai Assets
LLC), 877 F.3d 1031, 1034 (11th Cir. 2017) (alteration in
original) (quoting United States v. Global Fishing, Inc. (In re
Premises Located at 840 140th Ave. NE, Bellevue, Wash.), 634
F.3d 557, 566 (9th Cir. 2011); see CA6 ECF No. 12; see also In re
Premises, 634 F.3d at 566 (noting that for decades, courts of
appeals “have permitted appeals from a district court’s orders
under [Section] 1782, even if the complaining party has not
subjected himself or herself to contempt sanctions”); Bayer AG v.
Betachem, Inc., 173 F.3d 188, 189 (3d Cir. 1999); In re Letters
Rogatory Issued by the Dir. of Inspection of the Gov’t of India, 385
F.2d 1017, 1018 (2d Cir. 1967).

13
REASONS FOR GRANTING THE WRIT
Granting Certiorari Before Judgment Is The
Best Way To Resolve The Vital Question Of
Section 1782’s Scope If Servotronics Is
Dismissed
The question presented in this case is the exact
same question on which this Court already granted
review in Servotronics: Whether “the discretion
granted to district courts in 28 U.S.C. § 1782(a) to
render assistance in gathering evidence for use in ‘a
foreign or international tribunal’ encompasses
private commercial arbitral tribunals, as the Fourth
and Sixth Circuits have held, or excludes such
tribunals . . . as the Second, Fifth, and . . . the Seventh
Circuit, have held.” Servotronics Pet. i; see supra at i.
But the Court appears unlikely to resolve this crucial
issue in Servotronics, given that petitioner in that
case plans to move for voluntary dismissal. If
Servotronics is dismissed, the Court can and should
grant certiorari here in order to resolve the Section
1782 issue.
1. In Servotronics, the Court planned to address
the fundamental question whether Section 1782 can
be used to obtain discovery in connection with foreign
private arbitrations. Though the Sixth Circuit and
Fourth Circuits have previously answered that
question in the affirmative, the Second, Fifth, and
Seventh Circuits—and district courts in many
jurisdictions—have held that foreign private
arbitrations are not Section 1782 “tribunal[s].” See,
e.g., Republic of Kazakhstan v. Biedermann Int’l, 168
F.3d 880, 881 (5th Cir. 1999); National Broad. Co. v.
Bear Stearns & Co., 165 F.3d 184, 185-86 (2d Cir.
1999); Servotronics, Inc. v. Rolls-Royce PLC, 975 F.3d

14
689, 696 (7th Cir. 2020), cert. granted, 141 S. Ct. 1684
(2021). Indeed, one district court within the Third
Circuit only recently sided with the majority of
circuits in holding that private arbitrations are not
Section 1782 tribunals, see In re EWE Gasspeicher
GmbH, No. CV 19-mc-109-RGA, 2020 WL 1272612, at
*2 (D. Del. Mar. 17, 2020), appeal docketed, No. 201830 (3d Cir. Apr. 24, 2020), while a district court
within the Ninth Circuit sided with the Sixth Circuit
in holding that private arbitrations are Section 1782
tribunals, see HRC-Hainan Holding Co., LLC v.
Yihan Hu, No. 19-mc-80277-TSH, 2020 WL 906719,
at *4 (N.D. Cal. Feb. 25, 2020), appeal docketed, No.
20-15371 (9th Cir. Mar. 4, 2020); see also Order, HRCHainan Holding Co., No. 20-15371 (9th Cir. Mar. 22,
2021) (holding Ninth Circuit appeal in abeyance
pending this Court’s resolution of Servotronics). This
question is thus every bit as vital today—and the split
between the circuits every bit as deep—as it was when
this Court granted review in Servotronics.
A circuit split on this issue is particularly
troublesome because of the uncertainty that it creates
and the forum shopping it encourages. A party
seeking discovery for use in a private arbitration may
enlist the United States courts in that effort if it sues
in Cleveland, but not if it sues in Chicago. And that
same party will be unsure whether or not it can make
use of the federal courts if it sues in Los Angeles.
Moreover, proper venue may depend in large part on
where relevant witnesses and documents happen to
be located at the time the Section 1782 application is
brought. Such uncertainty undermines many of the
key advantages of private arbitration: “[D]ivergent
approaches [between the circuits] may disincentivize
parties from entering into contractual agreements to

15
privately arbitrate disputes,” as it will often be
impossible to know ex ante in which circuits potential
witnesses will be located—much less how those
circuits which have not weighed in on the issue will
come out. See Servotronics Atlanta Int’l Arbitration
Soc’y Amicus Br. in Supp. of Cert. 9.
This uncertainty explains why, after the Sixth
Circuit initiated the current circuit split by first
interpreting Section 1782 to encompass private
arbitrations,
“the
international
arbitration
community was flooded with scores of comments in
articles, legal blogs and law firm ‘alerts’ commenting
on the circuit split and the need for Supreme Court
review.”
Servotronics Int’l Inst. for Conflict
Prevention & Resolution Amicus Br. in Supp. of Cert.
12 & n.8 (Jan. 5, 2021) (collecting relevant sources).5
As one amicus informed the Court, “it cannot be
overstated that the international arbitration
community is anxiously awaiting the Supreme
Court’s definitive resolution of this important issue of
federal law that has significant implications globally
for the resolution of disputes arising from cross5

There have also been at least four law review articles
written on this issue. See Yanbai Andrea Wang, Exporting
American Discovery, 87 U. Chi. L. Rev. 2089 (2020); Recent Case,
Statutory Interpretation—Textualism—Sixth Circuit Holds That
Private Commercial Arbitration is a Foreign or International
Tribunal—In re: Application to Obtain Discovery for Use in
Foreign Proceedings, 939 F.3d 710 (6th Cir. 2019), 133 Harv. L.
Rev. 2627 (2020); Jason Arendt, Comment, Authorization of
Discovery
in
International
Commercial
Arbitration:
Demystifying the Sixth Circuit’s Statutory Construction of 28
U.S.C. § 1782(a), 9 Am. Univ. Bus. L. Rev. 417 (2020); Alejandro
A. Nava Cuenca, Note, Debunking the Myths: International
Commercial Arbitration and Section 1782(a), 46 Yale J. Int’l L.
155 (2021).

16
border business transactions.” Id. at 16. Given all
this, it is hardly surprising that this Court agreed to
review Servotronics to provide the certainty that
litigants across the globe sorely desire.
2. The problem is that—apparently in light of the
mootness concerns raised by respondents—
Servotronics appears likely to be dismissed. In the
lower courts, the petitioner in Servotronics sought
discovery for use in private arbitration proceedings in
London, conducted pursuant to the rules of the
Chartered Institute of Arbitrators. See Servotronics
Rolls-Royce Br. 4-5. But the hearing in that London
arbitration concluded on May 21, 2020. Id. at 3.
Although no final decision has been issued, the record
in that hearing appears to be closed. According to the
Servotronics respondents, no effective relief is now
possible, because any discovery ordered by this Court
would come too late to be introduced into evidence or
otherwise affect the London proceedings. Id. at 12-14.
As a result, the respondents argued, the case is
“almost certainly moot,” Servotronics Boeing Br. 1213; see also Servotronics Rolls-Royce Br. 12 (“This case
appears to be moot, and will certainly be moot when
the arbitrators’ award issues.”). And Servotronics
appears to have conceded the issue by agreeing to file
a motion for voluntary dismissal.
3. If this Court grants dismissal of Servotronics,
the Court will likely still want to resolve the
important Section 1782 issue on which it granted
certiorari. The Court’s best opportunity for doing so
would be to grant this petition.
This case cleanly presents the same pure legal
question presented in Servotronics. There is no doubt
that the DIS Panel for which Luxshare seeks
discovery is a foreign private arbitral panel, and it is

17
undisputed that if Section 1782 does not extend to
arbitrations conducted by such panels, Luxshare’s
request must be denied.
Moreover, if the Sixth Circuit grants the stay of
the district court’s discovery order that petitioners
have requested—or, alternatively, if this Court were
to grant the stay that petitioners anticipate seeking
from this Court immediately after any stay denial by
the Sixth Circuit—there is no risk this case will
become moot. Because Luxshare has not yet even
commenced arbitration proceedings, the discovery
dispute will remain live pending a ruling from this
Court. Indeed—and as explained above—petitioners
have committed to refrain from invoking the statute
of limitations for Luxshare to initiate arbitration
until four months after any stay of discovery entered
by the Sixth Circuit or this Court expires, so there is
no risk that the arbitration proceedings for which
discovery is sought could conclude before this Court
has had a chance to issue its decision. See supra at
10-11 & n.3.
To be sure, the Sixth Circuit has not yet ruled on
petitioners’ appeal, and ordinarily this Court would
wait to see what the appellate court does before
granting review itself in the first instance. Here,
however, it is absolutely clear that the Sixth Circuit
will reject petitioners’ threshold argument that
Section 1782 does not authorize discovery.
As
Luxshare and the district court have both (correctly)
emphasized, the Sixth Circuit’s binding decision in
Abdul Latif, 939 F.3d at 730-31, unequivocally holds
that district courts are authorized to grant discovery
for use in foreign arbitration proceedings, on the
theory that foreign arbitral panels do count as
“proceeding[s] in a foreign or international tribunal”

18
under Section 1782. See, e.g., CA6 ECF No. 13 at 14
(Luxshare’s opposition to stay); App. 60a. Petitioners
will inevitably lose on that issue if forced to litigate it
in the Sixth Circuit.
The best vehicle in which to review the Section
1782 issue is a case like this one—in which the courts
below have granted discovery, but where this Court
can conduct its merits review before both (1) the
discovery is produced, and (2) the foreign arbitration
proceeding has begun. If the Court waits for another
case in which the court of appeals denies discovery, it
will face the same mootness problem that appears to
have doomed Servotronics, in which the foreign
arbitration proceedings move forward to a conclusion
without the discovery. Indeed, the mootness problem
is so fundamental in this arena that the Servotronics
petitioner had previously argued that the dispute in
that case was one that was “capable of repetition yet
evading review.” Servotronics Reply Br. 3 (July 21,
2021).
In these circumstances, the certiorari-beforejudgment mechanism offers a procedural safety valve
to ensure that important questions regarding
discovery can be resolved by this Court. That
mechanism is reserved for cases “of such imperative
public importance as to justify deviation from normal
appellate practice and to require immediate
determination in this Court.” Sup. Ct. R. 11. Here,
this Court has already determined (in Servotronics)
that the Section 1782 is sufficiently important to
require this Court’s attention this Term. And, for the
reasons explained above, if Servotronics is dismissed,
the Court may not have a similar opportunity to
address the issue again in a subsequent case.

19
Notably, the Court has granted certiorari before
judgment in analogous circumstances, “when a
similar or identical question of constitutional or other
importance was before the Court in another case,” and
when granting review in the second case would
facilitate review of the question presented. Stephen
M. Shapiro et al., Supreme Court Practice § 4.20 (11th
ed. 2019, online) (citing eleven examples). Indeed, in
at least one case, the Court appears to have granted
certiorari before judgment to protect against the
possibility that an earlier-granted case presenting the
same issue could be moot. See Porter v. Dicken, 328
U.S. 252, 254 (1946) (addressing whether district
courts could consider actions by federal Price
Administrator seeking to enjoin state court eviction
proceedings, alongside Porter v. Lee, 328 U.S. 246
(1946), where court of appeals had dismissed Lee, 328
U.S. at 252, as moot because eviction had already
occurred, unlike in Dicken where the eviction was
enjoined).
In short, while this Court rarely grants certiorari
before judgment, this case presents an ideal vehicle
for reviewing the Section 1782 issue in the likely
event that Servotronics is dismissed. For that reason,
this Court should grant certiorari here to allow the
Court to resolve the meaning of Section 1782.
The Sixth Circuit’s Position Is Wrong
Certiorari is especially warranted in this case
because the Sixth Circuit’s settled interpretation of
Section 1782 is mistaken. That interpretation—
accurately reflected in the district court’s decision
granting discovery in this case—is unmoored from
that statute’s text, contemporaneous dictionary
definitions, this Court’s precedent, legal scholarship,

20
and compelling policy concerns. See, e.g., Servotronics
Rolls-Royce Br. 14-50. All of those sources confirm
that a “foreign or internal tribunal” under Section
1782
includes
only
governmental
or
intergovernmental adjudicative bodies, and excludes
private arbitrators that have no sovereign authority.
A host of amici agree, including the United States and
the U.S. Chamber of Commerce. See Servotronics
United States Amicus Br. (June 28, 2021),
Servotronics Chamber of Commerce of U.S., et al.
Amici Br. (June 28, 2021). And so do the Second,
Fifth, and Seventh Circuits, in thorough and wellreasoned opinions. See supra at 13-14.
As those sources have explained, at the time
Section 1782 was enacted in 1964, dictionaries
consistently defined a “tribunal” as a court or other
governmental adjudicator—a definition that plainly
excludes private arbitrators, who exercise no
sovereign authority.
See, e.g., Oxford English
Dictionary (1933, reprinted 1961); Webster’s Seventh
New Collegiate Dictionary (1963); Black’s Law
Dictionary (4th ed. 1951). This understanding is
confirmed by statutory usage. See, e.g., Servotronics
Rolls-Royce Br. 21-23 & n.1 (collecting federal
statutes using the term “tribunal”). It is similarly
confirmed by this Court’s own contemporary
precedent, which uniformly used the phrase “foreign
tribunals” as a synonym for courts or their
equivalents around the time Section 1782 became
law. See, e.g., id. at 25-27; Gulf Oil Corp. v. Gilbert,
330 U.S. 501, 504 (1947).
Contemporary usage and academic discussion
likewise reinforce that Section 1782 authorizes
judicial assistance only for governmental and
intergovernmental authorities. Servotronics Rolls-

21
Royce Br. 29-31 (collecting sources). For instance, in
1939 a group of American officials and scholars, in a
Draft Convention on Judicial Assistance (the Harvard
Draft Convention), defined a “tribunal” to include “all
courts and a limited number of administrative
agencies.” 33 Am. J. Int’l L. Sup. 11, 36 (1939). And
those authorities expressly specified that the “judicial
authority must be an authority created by the State”
and that a “tribunal of arbitration set up by private
parties . . . is not included, unless the law of the State
declares it to be a judicial authority of the State.” Id.
Similarly, a 1962 article by one professor who drafted
legislative recommendations for Section 1782 defined
an “international tribunal” as one that “owes both its
existence and its powers to an international
agreement.” Hans Smit, Assistance Rendered by the
United States in Proceedings Before International
Tribunals, 62 Colum. L. Rev. 1264, 1267 (1962).
Indeed, any definition of “foreign or international
tribunal” that did sweep in private arbitrators would
be unworkably vague and indeterminate, leaving
parties with no way to know which private bodies
might or might not be eligible to trigger Section 1782.
Legislative history, too, is in accord. Before
Congress revised Section 1782 to include the
language at issue here, the statute referred only to
foreign “court[s],” Act of Mar. 3, 1863, ch. 95, § 1, 12
Stat. 769, 769, and to “judicial proceeding[s] pending
in any court in a foreign country with which the
United States is at peace,” 28 U.S.C. § 1782 (1958).
The Rules Commission that proposed the revisions to
Section 1782 had been tasked by Congress with
improving “the procedures of our State and Federal
tribunals for the rendering of assistance to foreign
courts and quasi-judicial agencies.” Act of Sept. 2,

22
1958, Pub. L. No. 85-906, § 2, 72 Stat. 1743, 1743.
Private arbitrators, of course, are neither foreign
courts nor quasi-judicial agencies. And when it
presented its revisions to Section 1782, the Rules
Commission explained that its new language was
designed to provide district courts with “discretion to
grant assistance when proceedings are pending before
investigating magistrates in foreign countries,” and
emphasized that the “necessity for obtaining evidence
in the United States may be as impelling in
proceedings before a foreign administrative tribunal
or quasi-judicial agency as in proceedings before a
conventional foreign court.” Fourth Annual Report of
the Commission on International Rules of Judicial
Procedure, H.R. Doc. No. 88, 88th Cong., 1st Sess. at
45 (1963) (emphasis added).
Those statements clearly reflect the drafters’
intention that Section 1782 be broadened to permit
United States courts to assist the many varieties of
quasi-judicial bodies operating in foreign countries.
But they contain no hint at all that Congress intended
to allow the conscription of United States courts to aid
purely private foreign arbitrators.
The structure and surrounding text of Section
1782 likewise show that the statutory phrase “foreign
and international tribunals” is limited to sovereign
adjudicative bodies. For instance, Section 1782
permits district courts to apply “the practice and
procedure of the foreign country or the international
tribunal,” 28 U.S.C. § 1782(a) (emphasis added), as an
alternative to the Federal Rules of Civil Procedure—
an allowance that links such “tribunals” to
sovereignty. See Servotronics, 975 F.3d at 695. And
Section 1782’s specification that U.S. courts may
facilitate evidence-gathering “for use in a proceeding

23
in a foreign or international tribunal, including
criminal investigations conducted before formal
accusations,” 28 U.S.C. § 1782(a) (emphasis added),
similarly underscores Congress’s focus on proceedings
before sovereign bodies.
Private arbitrators, of
course, do not conduct criminal investigations.
Finally, a contrary reading of Section 1782 would
create unnecessary conflicts with the Federal
Arbitration Act (FAA) and unduly burden U.S. courts.
See Servotronics Rolls-Royce Br. 40-50. Indeed, as the
Seventh Circuit and the United States have both
recognized, “extending judicial assistance under
Section 1782 to [foreign private] arbitration would
create tension with the FAA . . . by allowing more
expansive discovery in foreign disputes than what is
permitted domestically.” Servotronics United States
Amicus Br. 26 (citation omitted); see Servotronics, 975
F.3d at 695 (“The discovery assistance authorized by
§ 1782(a) is notably broader than that authorized by
the FAA. . . . If § 1782(a) were construed to permit
federal courts to provide discovery assistance in
private foreign arbitrations, then litigants in foreign
arbitrations would have access to much more
expansive discovery than litigants in domestic
arbitrations.”). As the United States has pointed out
in Servotronics, moreover, the “logic” of the Sixth
Circuit’s position “would extend Section 1782 to
encompass investor-state arbitration,” with harmful
policy consequences. Servotronics United States
Amicus Br. 16; see also id. at 28-34.
In sum, text, contemporary usage, structure,
history, and policy concerns all militate in favor of
reversal of the district court’s decision in this case,
and the binding Sixth Circuit interpretation of
Section 1782 that the district court applied. But

24
perhaps even more important is the serious harm
inflicted by the ongoing circuit split and the
uncertainty that it creates. That uncertainty should
be resolved, one way or another, by this Court. If
Servotronics is not ultimately the proper vehicle to do
so, the Court should grant this petition to ensure that
this vital question receives a conclusive answer.
CONCLUSION
The petition for a writ of certiorari before
judgment should be granted.
Respectfully submitted,
Sean M. Berkowitz
LATHAM & WATKINS LLP
330 N. Wabash
Suite 2800
Chicago, IL 60611
Zachary L. Rowen
Justin S. Kirschner
LATHAM & WATKINS LLP
1271 Avenue of the
Americas
New York, NY 10020

Roman Martinez
Counsel of Record
Tyce R. Walters
LATHAM & WATKINS LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2200
roman.martinez@lw.com

Counsel for Petitioners
September 10, 2021

APPENDIX

TABLE OF CONTENTS
Page
Order of the United States District Court for
the Eastern District of Michigan
Overruling Objections To Magistrate
Judge’s Order Granting In Part and
Denying In Part Respondents’ Motion To
Quash, Luxshare, Ltd. v. ZF Automotive
US, Inc., No. 2:20-mc-51245, 2021 WL
2705477 (E.D. Mich. July 1, 2021), Dkt. No.
29 .........................................................................1a
Order Granting Ex Parte Application For An
Order Pursuant To 28 U.S.C. § 1782 To
Conduct Discovery For Use In Foreign
Proceedings (E.D. Mich. Oct. 22, 2020),
Dkt. No. 3 ..........................................................20a
Opinion and Order of the United States
District Court for the Eastern District of
Michigan Granting In Part and Denying In
Part Respondents’ Motion To Quash
Improper Subpoenas, Luxshare, Ltd. v. ZF
Automotive US, Inc., No. 2:20-mc-51245,
2021 WL 2154700 (E.D. Mich. May 27,
2021), Dkt. No. 26 .............................................22a
Opinion and Order of the United States
District Court for the Eastern District of
Michigan Denying Motion To Stay And
Granting Motion To Compel, Luxshare,
Ltd. v. ZF Automotive US, Inc., No. 20-mc51245, 2021 WL 3629899 (E.D. Mich. Aug.
17, 2021), Dkt. No. 38 .......................................57a
28 U.S.C. § 1782(a)..................................................70a

1a
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
LUXSHARE, LTD.,
Petitioner,

Case No. 2:20-mc51245

v.
ZF AUTOMOTIVE US,
INC., GERALD DEKKER,
and CHRISTOPHE
MARNAT,

Honorable Laurie J.
Michelson
Magistrate Judge
Anthony P. Patti

Respondents.
ORDER OVERRULING OBJECTIONS TO
MAGISTRATE JUDGE’S ORDER GRANTING
IN PART AND DENYING IN PART
RESPONDENTS’ MOTION TO QUASH [26]
2021 WL 2705477
As a result of a business dispute involving
hundreds of millions of dollars in potential damages,
Luxshare, LTD intends to initiate, by the end of the
year, an arbitration proceeding in Munich, Germany
against ZF Automotive US, Inc. Luxshare seeks
discovery for this foreign proceeding from ZF US and
two of its senior officers who all reside in the Eastern
District of Michigan.
Luxshare has filed an
application pursuant to 28 U.S.C. § 1782 seeking to
serve subpoenas for the production of documents and
testimony.
In evaluating Luxshare’s request,
Magistrate Judge Anthony P. Patti reviewed the
initial briefing, conducted an extensive hearing,
requested
supplemental
briefing,
thoroughly

2a
analyzed all of the relevant factors from the governing
case, see generally Intel Corp. v. Advanced Micro
Devices, Inc., 542 U.S. 241 (2004), and issued a 36page opinion. Magistrate Judge Patti determined that
some discovery was appropriate, but he significantly
limited its scope.
Now before the Court are
Respondents’ objections to Magistrate Judge Patti’s
order. None of them reveal any legal error or abuse
of discretion. The objections are OVERRULED.
I.
In August 2017, Luxshare, LTD purchased two
business units from Michigan-based automotive parts
supplier and manufacturer ZF Automotive US, Inc.
for nearly a billion dollars. (ECF No. 1, PageID.9.)
The two businesses were ZF US’s Global Body Control
Systems business and ZF US’s Radio Frequency
Electronics business (collectively, the “BCS-RFE
Businesses”). (Id.) The terms of the deal were set
forth in a Master Purchase Agreement. (Id.) The deal
closed in April 2018.
Luxshare claims that it only recently discovered
that, during the due diligence period and prior to the
closing on the transaction, ZF US fraudulently
concealed certain material facts and developments
concerning the significant decline in business
relationships with, and expected purchases from,
several of the most important customers of the BCSRFE Businesses (i.e., FCA, Ford, and GM). (Id. at
PageID.9–10.) This alleged fraud, claims Luxshare,
inflated the purchase price it paid for the BCS-RFE
Businesses by hundreds of millions of dollars over the
amount it would otherwise have paid for them. (Id.
at PageID.10.)

3a
The parties’ Master Purchase Agreement provides
that “[a]ll disputes arising under or in connection
with this Agreement . . . shall be exclusively and
finally settled by three (3) arbitrators in accordance
with the Arbitration Rules of the German Institution
of
Arbitration
e.V.
(DIS),
including
the
Supplementary Rules for Expedited Proceedings
. . . .” (ECF No. 6-2, PageID.266.) Also, “[t]he place of
the arbitration shall be Munich, Germany.” (Id.)
Luxshare intends to bring claims with a DIS
arbitral tribunal to recover for the losses it claims to
have suffered as a result of ZF US’s alleged wrongful
conduct. (ECF No. 1, PageID.10–11.) Luxshare has
until the end of 2021 to file for arbitration. (ECF No.
13, PageID.335.)
But prior to doing so, and because the arbitration
proceedings will be expedited, Luxshare seeks to
obtain discovery from ZF US and two of its senior
officers, Gerald Dekker (retired) and Christopher
Marnat, pertaining to the concealment of information
concerning the lost sales volumes. So on October 16,
2020, Luxshare filed an ex parte Application seeking
the Court’s permission to obtain this discovery
pursuant to 28 U.S.C. § 1782. (ECF No. 1.) Attached
to the Application are a subpoena for documents from
ZF US and subpoenas duces tecum for the depositions
of Dekker and Marnat. (ECF Nos. 1-2, 1-3, 1-4.) This
Court granted Luxshare’s ex parte application on
October 22, 2020. (ECF No. 3.) Luxshare served the
§ 1782 subpoenas on respondents the next day. (ECF
No. 13, PageID.331.)
Respondents then moved to quash (ECF No. 6),
which Luxshare opposed (ECF No. 13). The motion
was referred to Magistrate Judge Anthony P. Patti.
He conducted a hearing and then requested

4a
supplemental briefing. Judge Patti ultimately
entered an order granting in part and denying in part
the motion to quash. (ECF No. 26.) Judge Patti
authorized discovery but limited it as follows:
document searches in only the emails of Marnat and
one other custodian, and documents contained in a
centrally maintained shared drive, between
December 2016 and April 2018; modifications to
certain definitions in the subpoenas; and a deposition
of either Marnat or Dekker, but not both. Id.
Respondents oppose the production of any discovery
and thus, have filed timely objections. (ECF No. 27.)
II.
The parties dispute whether a magistrate judge’s
ruling on an application brought under 28 U.S.C.
§ 1782(a) constitutes a nondispositive order requiring
plain error review or a dispositive order requiring de
novo review. 28 U.S.C. § 636(b)(1)(A); Fed. R. Civ. P.
72(a). “Neither the Supreme Court nor any circuit
court appears to have squarely addressed this issue.
Most lower courts, however, have found that such
rulings are not dispositive and are therefore subject
to review only for clear error.” In re Hulley Enters.,
400 F. Supp. 3d 62, 71 (S.D.N.Y. 2019) (citing cases).
As one court in this Circuit has likewise explained,
“[t]he majority of persuasive authority on this topic
concludes that a magistrate judge’s ruling on a motion
for discovery under 28 U.S.C. § 1782(a) is
nondispositive.” JSC MCC EuroChem v. Chauhan,
No. 17-00005, 2018 U.S. Dist. LEXIS 138075, at *2
(M.D. Tenn. Aug. 15, 2018) (citing cases).
The Court sees no reason to deviate from this
majority view or to treat this matter differently from
other discovery disputes. “In a § 1782 proceeding,
there is nothing to be done ‘on the merits.’ Section

5a
1782 empowers a district court to order a person
residing within its district to ‘give his testimony or
statement or to produce a document or other thing for
use in a proceeding in a foreign or international
tribunal.’ The only issue before the district court is
discovery; the underlying litigation rests before a
foreign tribunal.” In re Republic of Ecuador, 735 F.3d
1179, 1182 (10th Cir. 2013). Thus, the Court will
uphold Magistrate Judge Patti’s order unless it is
“clearly erroneous or contrary to law.” United States
v. Curtis, 237 F.3d 598, 603 (6th Cir. 2001).
A ruling is “ ‘clearly erroneous’ when, although
there is evidence to support it, the reviewing court . . .
is left with the definite and firm conviction that a
mistake has been committed.” Hagaman v. Comm’r
of Internal Revenue, 958 F.2d 684, 690 (6th Cir. 1992)
(citation omitted). A legal conclusion is “contrary to
law ‘when it fails to apply misapplies relevant
statutes, case law, or rules of procedure.’” Ford Motor
Co. v. United States, No. 08-12960, 2009 U.S. Dist.
LEXIS 81720, 2009 WL 2922875, at *1 (E.D. Mich.
Sept. 9, 2009) (citation omitted). Relatedly, in
deciding discovery disputes, a magistrate judge is
entitled to the same broad discretion as a district
judge and his order is overruled only upon a finding
of an abuse of discretion. State Farm Mutual Auto.
Ins. Co. v. Pointe Physical Therapy, LLC, 255 F. Supp.
3d 700, 703 (E.D. Mich. 2017) report and
recommendation adopted No. 14-11700, 2017 U.S.
Dist. LEXIS 113535, 2017 WL 3116261 (July 21,
2017); Bill Call Ford, Inc. v. Ford Motor Co., 48 F.3d
201, 209 (6th Cir. 1995). An abuse of discretion exists
when the court applies the wrong legal standard,
misapplies the correct legal standard, or relies on

6a
clearly erroneous findings of fact. First Tech. Safety
Sys., Inc. v. Depinet, 11 F.3d 641, 647 (6th Cir. 1993).
III.
The purpose of an application under 28 U.S.C.
§ 1782 is to obtain federal-court assistance in
gathering evidence and testimony for use in foreign
tribunals. Intel Corp. v. Advanced Micro Devices, Inc.,
542 U.S. 241, 247, 124 S.Ct. 2466, 159 L.Ed.2d 355
(2004). To invoke § 1782, an applicant must first
meet certain threshold criteria: (1) the person from
whom discovery is sought “resides or is found” within
the district; (2) the discovery is “for use in a
proceeding before a foreign or international tribunal”;
and (3) the application is made by an “interested
person.” 28 U.S.C. § 1782(a).
If these statutory prerequisites are met, the
district court is authorized, but not required, to
permit discovery. Intel., 542 U.S. at 264. In other
words, § 1782 “leaves the issuance of an appropriate
order to the discretion of the court.” (Id. at 260–61.)
The following (Intel) factors guide the Court’s exercise
of its discretion: (1) whether the person from whom
discovery is sought is a participant in the foreign
proceeding; (2) the nature of the foreign tribunal, the
character of the proceedings, and the receptivity of
the agency abroad to federal-court judicial assistance;
(3) whether the application conceals an attempt to
circumvent foreign proof-gathering restrictions or
other policies; and (4) whether the discovery sought is
unduly intrusive or burdensome. Id. at 264–65. The
decision to grant an application is made in light of the
“twin aims” of § 1782: “providing efficient means of
assistance to participants in international litigation
and encouraging foreign countries by example to
provide similar assistance to our courts.” Id. at 252.

7a
The thrust of Respondents’ objections involve
Magistrate Judge Patti’s rulings on the Intel factors.
Respondents believe that “each discretionary factor
weighs in favor of quashing the Section 1782
Subpoenas in their entirety.”
(ECF No. 27,
PageID.651.) They also contend that his ruling does
not achieve either of the “twin aims” of § 1782.
Respondents do not object to Judge Patti’s
substantive rulings on the statutory prerequisites of
§ 1782. But they do object to his refusal to stay the
application pending a ruling in Servotronics, Inc. v.
Rolls-Royce PLC, 141 S. Ct. 1684 (2021) (cert.
granted), because the Supreme Court might
determine that § 1782 does not apply to a foreign,
private, commercial arbitration. (Id.) The Court will
address the objections in turn.
A.
The first discretionary factor to be considered is
whether “the person from whom discovery is sought is
a participant in the foreign proceeding.” Intel, 542
U.S. at 264. If so, “the need for § 1782(a) aid generally
is not as apparent as it ordinarily is when evidence is
sought from a nonparticipant in the matter arising
abroad.” Id. This is because “[a] foreign tribunal has
jurisdiction over those appearing before it, and can
itself order them to produce evidence.” Id. “In
contrast, nonparticipants in the foreign proceeding
may be outside the foreign tribunal’s jurisdictional
reach; hence, their evidence, available in the United
States, may be unobtainable absent § 1782(a) aid.”
Id.
Here, the contemplated German arbitration will
be against ZF US and not the individuals Gerald
Dekker and Christophe Marnat. And it is ZF US and
not Dekker and Marnat that have possession of the

8a
documents requested in the subpoenas.
Thus,
Magistrate Judge Patti found the participation factor
“was mixed” and warranted “permitting some
discovery as to the non-participants (Respondents
Dekker and Marnat) but curtailing discovery as to the
intended participant.” (ECF No. 26, PageID.613.)
Respondents claim this is error. (ECF No. 27,
PageID.652.) “If neither Mr. Dekker nor Mr. Marnat
have any responsive documents in their individual
possession, and those documents are instead held by
ZF US,” say Respondents, “then this is not a ‘mixed
factor’ at all: the discovery can only come from an
entity that is a party to the foreign arbitration.” (Id.
at PageID.654.)
But this is not dispositive. Some courts are “not
persuaded that Intel precludes § 1782 discovery of
parties participating in the underlying international
proceeding. Section 1782 aid is not foreclosed just
because the need for such aid may not be as readily
apparent.” In re Application of Auto-Guadeloupe
Investissement S.A., for an Ord. to Take Discovery
Pursuant to 28 U.S.C. Section 1782, No. 12 MC 221
RPP, 2012 WL 4841945, at *5 (S.D.N.Y. Oct. 10,
2012).
“Although the identity of the party is instructive,
the analysis turns on whether the evidence is
‘unobtainable absent § 1782(a) aid.’” Republic of Kaz.
v. Lawler, No. CV-20-00090, 2020 U.S. Dist. LEXIS
12694, at *10 (D. Az. Jan. 27, 2020) (citing Intel, 542
U.S. at 264); see also In re Judicial Assistance
Pursuant to 28 U.S.C. 1782 by Macquarie Bank Ltd.,
No. 14-cv-00797, 2015 WL 3439103, at *6 (D. Nev.
May 28, 2015) (“Although the case law at times refers
to whether the ‘person’ is within the foreign tribunal’s
jurisdictional reach, the key issue is whether the

9a
material is obtainable through the foreign
proceeding.”); In re Ex Parte Application of Qualcomm
Inc., 162 F. Supp. 3d 1029, 1039 (N.D. Cal. 2016)
(“[W]hether an entity is a participant . . . is not
dispositive; Intel puts it in the context of whether the
foreign tribunal has the authority to order an entity
to produce the disputed evidence.”).
Luxshare provided affidavits from Anna Masser,
its German counsel who will be handling the DIS
arbitration. (ECF No. 1-6; ECF No. 13-2.) She
supports Luxshare’s position that the DIS Rules have
no mechanism to compel discovery in the United
States. (See, e.g., ECF No. 1-6, PageID.95.) Masser
explains that the subpoenaed documents and
witnesses are all located in the United States, and
thus, for both parties and non-parties alike, the DIS
tribunal will have no authority to compel the
production of documents and deposition testimony
sought. (ECF No. 13-2, PageID.364–365.) This
supports Magistrate Judge Patti’s finding that this
factor is “mixed.” See In re Application for Discovery
Pursuant to 28 U.S.C. § 1782, 19-MC-0102, 2019 WL
4110442, at *2 (N.D. Ohio Aug. 29, 2019) (weighing
the first Intel factor in favor of granting the
application even when the respondents were parties
to an Italian proceeding because, as residents of Ohio,
the respondents fell outside the authority of the
Italian courts to compel compliance with domestic
discovery).
Moreover, there is no dispute that the individual
Respondents will not be participants in the foreign
proceeding and thus, the first Intel factor weighs in
favor of permitting one of their depositions.

10a
There is simply no legal error or abuse of
discretion in Magistrate Judge Patti’s weighing of the
first Intel factor.
B.
Under the second discretionary Intel factor, the
Court considers “the nature of the foreign tribunal,
the character of the proceedings underway abroad,
and the receptivity of the foreign government or the
court or agency abroad to U.S. federal-court judicial
assistance.” Intel, 542 U.S. at 264. Prior to evaluating
this factor, Magistrate Judge Patti asked the parties
for supplemental briefing on the issue of DIS’s
receptivity to § 1782 discovery.
(ECF No. 25,
PageID.600.) He found the parties to be “at odds.”
(ECF No. 26, PageID.615.)
So Judge Patti reviewed the DIS rules, the parties’
competing declarations, and the relevant case law.
He found that the 2018 DIS Arbitration Rules related
to “Establishing the Facts,” namely Articles 28.1 and
28.2, “do not restrict evidence gathering.” (ECF No.
26, PageID.613.) More specifically, Article 28.2
provides that the tribunal “may, inter alia, on its own
initiative, appoint experts, examine fact witnesses
other than those called by the parties, and order any
party to produce or make available any documents or
electronically stored data.” (Id.) An entire section of
the declaration of Luxshare’s German counsel is
devoted to explaining that “German Courts Admit
Evidence Obtained By Way Of U.S. Discovery
Applications[].” (ECF No. 13-2, PageID.359–362).
Considering this evidence, and “without authoritative
proof that the DIS would reject Section 1782
discovery,” Magistrate Judge Patti “assume[d] that
the DIS would receive it if it were obtained and
presented.” (ECF No. 26, PageID.616.) He ultimately

11a
found that “while DIS does not provide a generous
ration of discovery, it appears receptive to whatever
evidence a party wants to put in front of it, and it does
not impede proof-gathering.” (Id.)
Respondents disagree. They first point to case law
that has “cast aside” the notion that the receptivity
factor requires a respondent to provide “authoritative
proof” of non-receptivity.
But other courts have taken the opposite view. See
In re Application for Discovery for Use in Foreign
Proceeding Pursuant to 28 U.S.C. § 1782, No. 174269, 2019 U.S. Dist. LEXIS 5632, at *20–21 (D.N.J.
Jan. 10, 2019) (“In evaluating a foreign tribunal’s
receptivity, the court considers ‘authoritative proof
that a foreign tribunal would reject evidence obtained
with the aid of section 1782.’”) (quotation omitted); In
re O’Keeffe, 646 F. App’x 263, 265–66 (3d Cir. 2016)
(finding that the district court did not abuse its
discretion in requiring “authoritative proof that the
foreign court would reject the evidence obtained with
the aid of Section 1782” on a motion to quash a
subpoena). Indeed, another court in this District
recently stated that “[t]he majority of opinions from
other circuits indicate that the second Intel factor
weighs against a section 1782 application only if there
is ‘authoritative proof that [the] foreign tribunal
would reject evidence obtained with the aid of section
1782.’” In re Ex Parte Caterpillar Inc., 2020 U.S. Dist.
LEXIS 70913, at *31–33 (M.D. Tenn. Apr. 21, 2020)
(citing Euromepa S.A. v. R. Esmerian, Inc., 51 F.3d
1095, 1100 (2d Cir. 1995)); see also Ecuadorian
Plaintiffs v. Chevron Corp., 619 F.3d 373, 378 (5th
Cir. 2010) (noting that the party opposing discovery
“ha[s] not pointed to any judicial, executive or
legislative declaration that clearly demonstrates that

12a
allowing discovery in this case would offend
Ecuadorian judicial norms” (internal citation and
quotations omitted)). Also, “District courts have . . .
been ‘instructed to tread lightly and heed only clear
statements by foreign tribunals that they would not
welcome § 1782 assistance.’” Caterpillar, 2020 U.S.
Dist. LEXIS 70913, at *32 (quoting In re Porsche
Automobile Holding SE, No. 19-MC-91129, 2019 WL
5806913, at *7 (D. Mass. Nov. 6, 2019)).
After evaluating the record, Judge Patti found no
definitive proof that the DIS panel would be
unreceptive to evidence derived from Luxshare’s
section 1782 application. There is no legal error in his
ruling. He reasonably relied on the DIS rules and
Masser’s declarations. So there is no abuse of
discretion either.
Respondents next contend that the magistrate
judge should have found the receptivity factored
weighed against discovery because Luxshare has yet
to commence the arbitration in Germany and thus,
cannot demonstrate that the DIS panel would find the
discovery useful. Respondents cite case law in
support.
But again, there is case law supporting the
opposite view. See, e.g., In re Mesa Power Group,
LLC, 878 F. Supp. 2d 1296, 1303 (S.D. Fla. 2012)
(“Section 1782 may authorize and encourage judicial
assistance even if the foreign proceeding has not
commenced or advanced because ‘§ 1782 is not limited
to proceedings that are pending.’” (citation omitted)).
And Intel rejected the view that a pending
proceeding before a foreign tribunal was necessary for
§ 1782 discovery—it required only that the
proceeding be “within reasonable contemplation.”

13a
542 U.S. at 259. So it must be that that the district
courts can do precisely what Judge Patti did here—
review the rules of the foreign arbitration panel and
declarations from German lawyers to try to discern
the panel’s receptivity to the requested discovery.
The Court cannot say that the magistrate judge’s
weighing of the discretionary receptivity factor in
Luxshare’s favor is contrary to law or clearly
erroneous.
C.
Respondents next focus on Luxshare’s admissions
that they are seeking § 1782 discovery because “[i]t is
unlikely we’d be able to get this level of discovery in
the DIS, which is exactly why we’re seeking it here”
and that “if [Luxshare] were to seek this discovery,
the DIS . . . would not permit it.” (ECF No. 27,
PageID.658.) These admissions, say Respondents,
are the “essence of circumvention” of foreign proofgathering restrictions and thus, this Intel should
weigh in their favor. (Id. at PageID.659.)
Judge Patti, too, expressed concerns about these
admissions.
And after considering them, the
declarations from both parties’ German law experts
concerning the scope of DIS discovery, and some
relevant case law, found this factor to be “mixed.”
(ECF No. 26, PageID.621.) He recognized that most
foreign legal systems do not embrace the breadth and
scope of American civil discovery. (Id. at PageID.617.)
But he was also persuaded that § 1782 discovery is
not prohibited under German law or by DIS Rules.
(Id. at 620.) As Judge Patti thoughtfully explained:
“while the Court maintains a healthy caution about
giving discovery here that may not be readily or at all
available under the DIS Arbitration Rules, the Court

14a
also notes that they neither foreclose nor prohibit
such discovery. In other words, the Court wants to be
cautious by not giving Petitioner full-blown Section
1782 discovery for use in a tribunal—DIS
Arbitration—that does not expressly permit it, but the
Court also certainly need not completely bar the
request where the rules do not expressly prohibit it.”
(ECF No. 26, PageID.622 (emphasis in original).)
Respondents say this is error. They rely on a
number of district court opinions that they believe
“confirm[] that courts closely guard against attempts
to use § 1782 to evade foreign proof-gathering rules.”
(ECF No. 27, PageID.659.)
But again, there is competing case law. And this
Court finds persuasive the reasoning from another
court in this Circuit that “a section 1782 applicant
does not circumvent a foreign court’s purview merely
by seeking discovery that would not be available in
that jurisdiction.” In re Ex Parte Caterpillar Inc.,
2020 U.S. Dist. LEXIS 70913, at *34–35 (M.D. Tenn.
Apr. 21, 2020); see also Mees v. Buiter, 793 F.3d 291,
303 (2d Cir. 2015) (holding that because section 1782
contains no foreign-discoverability requirement, “the
availability of the discovery in the foreign proceeding
should not be afforded undue weight”). “It is in fact
well within a district court’s authority to grant
‘broader discovery under § 1782 than what might be
permitted in the foreign tribunal.’” Id. (quoting In re
Gorsoan Ltd., ––– F. Supp. 3d –––, 2020 WL 409729,
at *8 (S.D.N.Y. Jan. 24, 2020)). And this policy
“makes logical sense” given that the DIS tribunal will
ultimately “serve as gatekeeper as to any evidence
derived from [Luxshare’s] subpoenas.” Id. at *35
(citing In re Biomet Orthopaedics Switzerland GmBh,
742 F. App’x 690, 698 (3d Cir. 2018); see also In re

15a
Biomet, 742 F. App.’x at 698 (noting that despite
granting a section 1782 application, “the German
court retains the authority to disregard irrelevant or
cumulative evidence, or even to conclude that it will
not admit any of the submissions”)).
Absent a more compelling showing by
Respondents that the discovery sought by Luxshare
would be prohibited by the German arbitral tribunal,
the Court cannot say that the magistrate judge’s
weighing of this discretionary Intel factor is contrary
to law or clearly erroneous.
D.
The fourth Intel factor concerns the scope of the
discovery requests. Respondents even take issue with
Magistrate Judge Patti’s efforts to scale back the
scope of the subpoenas.
First, say respondents, “there is no permissible
scope for a subpoena that fails the first three
discretionary factors.” (ECF No. 27, PageID.662.)
But, for the well-supported reasons provided by the
magistrate judge and, as set forth above, Luxshare’s
requests do not fail the first three discretionary
factors.
Next, respondents contend that the magistrate
judge’s decision fails to satisfy the “twin aims” of
§ 1782, which are “providing efficient assistance to
participants in international litigation and
encouraging foreign countries by example to provide
similar assistance to our courts.” Intel, 542 U.S. at
252. Respondents are most upset with Magistrate
Judge Patti’s finding that he “need not wait to see
what DIS is going to do, because ‘the Panel has the
authority to admit evidence as it sees fit,’ and it is ‘in

16a
the best position to make those evidentiary
determinations.’” (ECF No. 27, PageID.662.)
But the Court fails to see how allowing limited
discovery now of information located in this District,
that will help keep the arbitration on an expedited
track once it commences, and then permitting DIS,
with its superior knowledge of foreign law and
procedure, to serve as the ultimate evidentiary gatekeeper, is inefficient for the participants. And, as
pointed out by Luxshare, “the grant of Section 1782
[discovery] serves as a ‘generous example’ to
encourage foreign countries to provide similar means
of assistance to U.S. litigants.”
(ECF No. 28,
PageID.698–699 (citing Heraeus Kulzer, GmbH v.
Biomet, Inc., 633 F.3d 591, 594 (7th Cir. 2011)).)
Thus, the “twin aims” of section 1782 do not appear to
be in any peril from the magistrate judge’s ruling.
Respondents also suggest that Magistrate Judge
Patti’s ruling somehow contravenes the parties’
intent in contracting for the German arbitration. But
Judge Patti was cognizant of this concern. He
requested and then carefully considered the parties’
supplemental briefing on this issue. He aptly noted
that the parties’ arbitration provision “could have
included appropriate language prohibiting Section
1782 discovery,” but did not, and he reiterated that
“the 2018 DIS Arbitration Rules . . . do not restrict
evidence gathering.” (ECF No. 26, PageID.623.)
Moreover, the discovery being sought bears on key
issues at stake in the impending arbitration, that
being Respondents’ knowledge that Ford, GM, and
FCA were reducing or eliminating their business with
the ZF US business units being purchased by
Luxshare and Respondents’ decision to not disclose
this information to Luxshare. Also, as Judge Patti

17a
found, Luxshare’s pursuit of this Section 1782
discovery now “is consistent with a desire to keep the
arbitration on an expedited track, once it commences,
by obtaining the discovery beforehand.” (ECF No. 26,
PageID.626.) So again, the Court fails to see how
Judge Patti’s allowance of limited, relevant discovery
upsets the efficiency Respondents believe they
bargained for by expressly electing for dispute
resolution by the DIS.
In sum, there is nothing about the “twin aims” of
§ 1782 that warrants a reversal of Magistrate Judge
Patti’s ruling.
E.
Respondents’ final objection concerns Magistrate
Judge Patti’s denial of their request to stay these
proceedings.
The Supreme Court is presently considering
whether the discretion granted to district courts in 28
U.S.C. § 1782(a) to render assistance in gathering
evidence for use in “a foreign or international
tribunal” encompasses or excludes private,
commercial arbitral tribunals. See Servotronics, Inc.
v. Rolls-Royce PLC, 141 S. Ct. 1684 (2021). This will
resolve a circuit split. The Sixth Circuit has held that
Section 1782 discovery is available for private, foreign
arbitrations. Abdul Latif Jameel Trans. Co. Ltd. v.
FedEx Corp., 939 F.3d 710, 730 (6th Cir. 2019). Of
course, this Court remains bound by Abdul until the
Supreme Court says otherwise. If, however, the
Supreme Court determines that foreign private
arbitrations are not subject to § 1782, then Luxshare’s
application will not satisfy the statutory
prerequisites. Thus, say Respondents, it was error for

18a
Magistrate Judge Patti to refuse to stay this case
pending a ruling in Servtronics.
While this is easy to say, it is much harder to
prove. A district court has “broad discretion . . . as an
incident to [its] power to control its own docket” to
stay some or all of pending proceedings. Clinton v.
Jones, 520 U.S. 681, 706 (1997). Indeed, “[t]he power
to stay proceedings is incidental to the power inherent
in every court to control the disposition of the causes
on its docket with economy of time and effort for itself,
for counsel, and for litigants. How this can best be
done calls for the exercise of judgment, which must
weigh competing interests and maintain an even
balance.” Landis v. North American Co., 299 U.S. 248
(1936). The court “must tread carefully in granting a
stay of proceedings, since a party has a right to a
determination of its rights and liabilities without
undue delay.” Ohio Envtl. Council v. U.S. Dist. Court,
S. Dist. of Ohio, E. Div., 565 F.2d 393, 396 (6th Cir.
1977).
As he did in weighing the Intel factors, Magistrate
Judge Patti gave thoughtful consideration to the stay
issue:
Given the potential length of time before the
Supreme Court issues its decision in
Servotronics, the fact that there is binding
precedent from the Sixth Circuit, and the need
for swifter action and greater certainty within
the timeframe for the filing and pursuit of what
will be expedited arbitration proceedings in
Germany, the Court declines to exercise its
discretion to stay the case pending the Supreme
Court’s decision in Servotronics.
Furthermore, the limited scope of the discovery

19a
which this Court has decided to grant takes the
uncertainty of how the Supreme Court will rule on
this issue into account—in conjunction with the
discretionary Intel factors—permitting some, but by
no means all of the requested discovery, and
recognizing that both DIS and the Supreme Court
may give further guidance in the future.
(ECF No. 26, PageID.629–630.)
There is simply no merit in any contention that
this ruling is an abuse of discretion or in any other
way erroneous.
IV.
For all of these reasons, Respondents’ objections to
Magistrate Judge Patti’s order on their motion to
quash are OVERRULED.
SO ORDERED.
Dated: July 1, 2021
s/Laurie J. Michelson
LAURIE J. MICHELSON
UNITED STATES DISTRICT JUDGE

20a
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
-------------------------------------x
In re Application for an
Order Pursuant to 28
U.S.C. § 1782 to Conduct
Discovery for Use in
Foreign Proceedings
-------------------------------------x

:
: 2:20-mc-51245: LJM-APP
:
:
:
:

ORDER GRANTING EX PARTE
APPLICATION FOR AN ORDER PURSUANT
TO 28 U.S.C. § 1782 TO CONDUCT DISCOVERY
FOR USE IN FOREIGN PROCEEDINGS
Upon
consideration
of
Luxshare
Ltd.’s
(“Applicant”) ex parte Application for an Order
Pursuant to 28 U.S.C. § 1782 to Conduct Discovery for
Use in Foreign Proceedings (the “Application”) and
accompanying memorandum of law, declarations and
exhibits appended thereto, it is hereby:
ORDERED that the Application be and hereby is
GRANTED; and it is further
ORDERED that the Applicants, Luxshare Ltd.,
through their counsel, are permitted to obtain
discovery for use in foreign proceedings from ZF
Automotive US, Inc., Gerald Dekker, and Christophe
Marnat by way of subpoenas that are (1) served in
accordance with the Federal Rules of Civil Procedure
and this Court’s local rules; and (2) substantially in
the form of the proposed subpoenas attached hereto
as Exhibits 1-3.

21a
SO ORDERED.
Dated: Detroit, Michigan.
October 22, 2020

[Exhibits 1-3 omitted]

s/ Laurie J. Michelson
United States District
Judge

22a
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
LUXSHARE, LTD.,

Case No. 2:20-mc51245

Petitioner,
v.

District Judge
Laurie J. Michelson

ZF AUTOMOTIVE US,
INC., GERALD DEKKER,
and CHRISTOPHE
MARNAT,

Magistrate
Judge
Anthony P. Patti

Respondents.
/
OPINION AND ORDER GRANTING IN PART
and DENYING IN PART RESPONDENTS’
MOTION TO QUASH IMPROPER SUBPOENAS
(ECF NO. 6)
2021 WL 2154700
I.

OPINION
A. Petitioner’s Ex Parte Application
Petitioner Luxshare, Ltd. has filed an Ex Parte
Application For An Order Pursuant to 28 U.S.C.
§ 1782 to Conduct Discovery for Use in Foreign
Proceedings. (ECF No. 1.) Section 1782 concerns
“[a]ssistance to foreign and international tribunals
and to litigants before such tribunals.” 28 U.S.C.
§ 1782. Of importance to the matter currently before
the Court are Luxshare’s subpoenas to ZF Automotive
US, Inc. (“ZF US”), Gerald Dekker, and Christophe
Marnat (collectively “Respondents”). (ECF Nos. 1-2,
1-3, 1-4.)

23a
On October 22, 2020, Judge Michelson entered an
order granting Luxshare’s ex parte application. (ECF
No. 3.) In so doing, the Court permitted Luxshare “to
obtain discovery for use in foreign proceedings from
ZF Automotive US, Inc., Gerald Dekker, and
Christophe Marnat (“Respondents”) by way of
subpoenas that are (1) served in accordance with the
Federal Rules of Civil Procedure and this Court’s local
rules; and (2) substantially in the form of the proposed
subpoenas attached hereto as Exhibits 1-3.” (Id.,
PageID.165.)
A. Respondents’ Motion to Quash
Currently before the Court is Respondents’
December 4, 2020 motion to quash improper
subpoenas. (ECF No. 6.) Luxshare has filed a
response (ECF No. 13), Respondents have filed a reply
(ECF No. 14), and the parties have filed a joint
statement of unresolved issues (ECF No. 15).
Judge Michelson referred this case to me for
pretrial matters, and, ultimately, a hearing was held
on February 24, 2021, at which counsel for Luxshare
(Bradley Pensyl, Kendall Robert Pauley, Michael G.
Brady, and Anna Masser) and Respondents (Herbert
C. Donovan, Sean Berkowitz, Alena McCorkle, and
Christoph Baus) appeared. (ECF Nos. 8, 10.) The
Court entertained oral argument on the motion,
ordered additional briefing, and took the matter
under advisement.
(ECF No. 25 [Revised
Transcript].)

24a
C. Discussion
1. Legal Framework: A Two Step Inquiry
a. Statutory Factors/Requirements
The present ex parte application is governed by 28
U.S.C. 1782(a), which reads as follows:
The district court of the district in which a person
resides or is found may order him to give his
testimony or statement or to produce a document
or other thing for use in a proceeding in a foreign
or international tribunal, including criminal
investigations
conducted
before
formal
accusation. The order may be made pursuant to
a letter rogatory issued, or request made, by a
foreign or international tribunal or upon the
application of any interested person and may
direct that the testimony or statement be given,
or the document or other thing be produced,
before a person appointed by the court. By virtue
of his appointment, the person appointed has
power to administer any necessary oath and take
the testimony or statement. The order may
prescribe the practice and procedure, which may
be in whole or part the practice and procedure of
the foreign country or the international tribunal,
for taking the testimony or statement or
producing the document or other thing. To the
extent that the order does not prescribe
otherwise, the testimony or statement shall be
taken, and the document or other thing
produced, in accordance with the Federal Rules
of Civil Procedure.
A person may not be compelled to give his
testimony or statement or to produce a document

25a
or other thing in violation of any legally
applicable privilege.
As one court has summarized these threshold
requirements for exercising authority under the
statute:
A district court has the authority to grant an
application for judicial assistance if the following
statutory requirements in § 1782(a) are met:
(1) the request must be made “by a foreign or
international tribunal,” or by “any interested
person”; (2) the request must seek evidence,
whether it be the “testimony or statement” of a
person or the production of “a document or other
thing”; (3) the evidence must be “for use in a
proceeding in a foreign or international
tribunal”; and (4) the person from whom
discovery is sought must reside or be found in the
district of the district court ruling on the
application for assistance.
In re Clerici, 481 F.3d 1324, 1331–32 (11th Cir. 2007);
see also Bey v. Resurgent Mort. Serv’g, No. 14-51040,
2014 WL 5512663, at *2 (E.D. Mich. Oct. 31, 2014)
(Drain, J.).
If all the statutory requirements are met, § 1782
then “authorizes, but does not require, a federal
district court to provide assistance.” Intel Corp. v.
Advanced Micro Devices, Inc., 542 U.S. 241, 255
(2004). In ruling on such an application, “a district
court must first consider the statutory requirements
and then use its discretion in balancing a number of
factors.”
Brandi-Dohrn
v.
IKB
Deutche
Industriebank, 673 F.3d 76, 80 (2d Cir. 2012). Put
another way, a § 1782 application “presents two
inquiries, first, whether the district court is

26a
authorized to grant the request; and second, if so,
whether the district court should exercise its
discretion to do so.”
Buchwalter, Annotation,
Construction and Application of 28 U.S.C.A. § 1782,
Permitting Federal District Court to Order Discovery
for Use in Proceeding in Foreign or International
Tribunal, 56 A.L.R. Fed.2d 307, § 2 (2011). If the
court concludes that any of the statutory
requirements are not met, thus depriving it of the
authority to grant relief under the statute, the inquiry
ends there; however, if the statutory requirements
are met, the court goes on to consider the
discretionary factors. Importantly, “the district court
is not required to grant a § 1782(a) discovery
application simply because it has the authority to do
so.” Intel Corp., 542 U.S. at 264 (citing United
Kingdom v. United States, 238 F.3d 1312, 1319 (11th
Cir. 2001)). “Once the statutory requirements are
met, a district court is free to grant discovery in its
discretion.”
Schmitz v. Bernstein, Liebhard &
Lifshitz, LLP, 376 F.3d 79, 83 (2d Cir. 2004) (internal
citations omitted). In exercising this discretion, the
court takes “into consideration the ‘twin aims’ of the
statute, namely, ‘providing efficient means of
assistance to participants in international litigation
in our federal courts and encouraging foreign
countries by example to provide similar means of
assistance to our courts.’” Certain Funds, Accounts
and/or Investment Vehicles v. KPMG, L.L.P. et. al.,
798 F.3d 113, 117 (2d Cir. 2015) (quoting In re
Metallgesellschaft, 121 F.3d 77, 79 (2d Cir. 1997)).
b. Discretionary Factors
The leading and controlling authority is supplied
by the Supreme Court’s decision in Intel, where
Justice Ginsburg, writing for the majority, identified

27a
“factors that bear consideration in ruling on a
§ 1782(a) request.” Intel Corp., 542 U.S. at 264.
These factors are consistently introduced by
discretionary language, such as “may take into
consideration[,]” “could consider[,]” and “may be
rejected or trimmed.” Id. at 264-265. As applied to
the present application for discovery, the factors that
“bear consideration” are: (1) Whether ZF Automotive
US, Inc., Gerald Dekker, and Christophe Marnat are
participants in the foreign proceeding(s); (2) the
nature of the foreign tribunal(s), including (a) the
character of the proceedings underway abroad and
(b) the receptivity of the foreign government or
tribunal to judicial assistance from United States
federal courts; (3) whether the § 1782(a) request
conceals an attempt to circumvent foreign proofgathering restrictions or other policies of a foreign
country or of the United States; and, (4) whether the
requests are unduly intrusive, and, if so, whether they
ought to be “rejected or trimmed.” Id. at 265.
2. Whether
Petitioner’s
requested
discovery
meets
Section
1782’s
statutory requirements?
Luxshare seeks § 1782 discovery in connection
with a prospective arbitration to be filed against ZF
US in Germany. (ECF No. 1, PageID.9; ECF No. 1-6,
PageID.87, ¶ 1.) Respondents contend that “[t]he
requested Section 1782 discovery is not ‘for use’ in the
prospective German arbitration[.]” (ECF No. 6,
PageID.232-234.) At the hearing, with Certain Funds
and In re Sargeant, 278 F. Supp. 3d 814, 824
(S.D.N.Y. 2017) in mind, Respondents argued that
“1782 should not be used as a means of discovering
whether you have a case.” (ECF No. 25, PageID.573.)
True; however, the Supreme Court has directed that

28a
“Section 1782(a) does not limit the provision of
judicial assistance to ‘pending’ adjudicative
proceedings[,]” and that “§ 1782(a) requires only that
a dispositive ruling by the Commission, reviewable by
the European courts, be within reasonable
contemplation.” Intel Corp., 542 U.S. at 258-259
(emphasis added). Compare Certain Funds, 798 F.3d
at 124 (affirming district court’s denial of Section
1782 application where, “at the time the evidence was
sought in this case, the Funds had done little to make
an objective showing that the planned proceedings
were within reasonable contemplation.”); In re
Sargeant, 278 F. Supp. 3d at 823-824 (denying
application where “the Section 1782 Application [wa]s
bereft of even the broadest contours of what the
possible proceeding(s) in the United Kingdom or the
Isle of Man may entail—they [we]re entirely
embryonic.”).
Having reviewed the parties’ arguments and
submissions on this issue (ECF No. 13, PageID.331337; ECF No. 14, PageID.378-380), the Court
concludes that Petitioner has met the statutory
requirements of § 1782. Preliminarily, Luxshare
addressed the “for use” requirement in its application,
ultimately asserting that the Application “has set
forth a sufficient basis that meets and exceeds the
reasonable contemplation standard.” (See ECF No. 1,
PageID.25-27; see also ECF No. 3.) Moreover:
• while the Supreme Court has recently granted
a petition for certiorari in Servotronics, Inc. v.
Rolls-Royce PLC, No. 20-794, 2021 WL
1072280 (Mar. 22, 2021) on the issue of
“[w]hether the discretion granted to district
courts in 28 U.S.C. § 1782(a) to render
assistance in gathering evidence for use in ‘a

29a

•

•

•

•

foreign or international tribunal’ encompasses
private commercial arbitral tribunals[,]” 2020
WL 7343172, this Court is currently bound by
In re Application to Obtain Discovery for Use in
Foreign
Proc.
(Abdul
Latif
Jameel
Transportation Company Limited, MovantAppellant, v. FedEx Corporation, RespondentAppellee.), 939 F.3d 710, 730 (6th Cir. 2019),
which found that it does (See also ECF No. 25,
PageID.557-558);
“the word ‘tribunal’ in § 1782(a) encompasses
private, contracted-for commercial arbitrations
of the type at issue here[,]” Abdul, 939 F.3d at
730;
Respondents agree that Luxshare has until
the end of 2021 to file the arbitration (See
ECF No. 25, PageID.558; see also id.,
PageID.583-584, 590);
when confronted about waiting to see what the
DIS Arbitration tribunal (“DIS”) – i.e., the
German
Arbitration
Institute
(https://
www.disarb.org/en) – actually wants, Luxshare
explained, inter alia, that the Court need not
wait to see what DIS is going to do, because
“the Panel has the authority to admit evidence
as it sees fit[,]” and it is “in the best position to
make those evidentiary determinations[,]”
(ECF No. 25, PageID.580-581, 588-589);
Luxshare provided David Huang’s declaration,
which reflects that Luxshare retained counsel
– Allen & Overy LLP, a law firm with offices
around
the
world
(https://www.
allenovery.com/en-gb/global/global_coverage) –
in July 2020 “to represent [it] in this matter

30a
and prepare the Request for Arbitration,”
which Luxshare “plans to file with the German
Institution of Arbitration ev. (DIS) in Munich,
Germany[,]” (ECF No. 1-5, PageID.84 ¶ 21).1
The only statutory factor that Respondents question
in their motion is the requirement that the requested
evidence or testimony be for use in foreign
proceedings, because the arbitration has yet to be
filed. (ECF No. 6, PageID.232-234.) In other words,
they attack the notion that the DIS arbitration is
“within reasonable contemplation.” The Court is well
satisfied, on this record, that it is.
3. Whether the first three discretionary
Intel
factors
favor
granting
Respondents’ motion to quash?
Respondents and Luxshare are also at odds as to
whether the discretionary Intel factors weigh in favor
of granting the motion to quash in its entirety,
denying it outright, or circumscribing the requested
discovery. (Compare, ECF No. 6, PageID.235-248,
and ECF No. 14, PageID.375-378, with ECF No. 13,
PageID.338-350.) For the reasons that follow, the
Court concludes that the requested discovery should
be permitted, but circumscribed.

1

Compare financialright GmbH v. Robert Bosch LLC, 294
F. Supp. 3d 721, 725, 729-732 (E.D. Mich. 2018) (Patti, M.J.)
(“the German court had dismissed the test case after finding that
there
was
no
viable
claim,”
and
the
statutory
factors / requirements had not been met, in part because “the
documents in question will not be ‘usable’ and, therefore, not ‘for
use’ in these foreign proceedings.”). In fact, the Court mentioned
some of the differences between this case and financialright
GmbH during the February 24, 2021 hearing. (ECF No. 25,
PageID.560-561, 564, 566, 575.)

31a
a. Participant
“[W]hen the person from whom discovery is sought
is a participant in the foreign proceeding . . . , the
need for § 1782(a) aid generally is not as apparent as
it ordinarily is when evidence is sought from a
nonparticipant in the matter arising abroad.” Intel
Corp., 542 U.S. at 264. “A foreign tribunal has
jurisdiction over those appearing before it, and can
itself order them to produce evidence.” Id. “In
contrast, nonparticipants in the foreign proceeding
may be outside the foreign tribunal’s jurisdictional
reach; hence, their evidence, available in the United
States, may be unobtainable absent § 1782(a) aid.”
Id.
As noted above, Luxshare has issued subpoenas to
ZF US, Gerald Dekker, and Christophe Marnat.
(ECF Nos. 1-2, 1-3, 1-4.) While Respondents contend
that ZF US would “would be a party in any potential
DIS arbitration[,]” Luxshare notes that “respondents
Dekker and Marnat are [or, more accurately, would
be] non-parties[,]” much of which was also confirmed
at oral argument. (ECF No. 6, PageID.235-238; ECF
No. 13, PageID.340-341; ECF No. 14, PageID.377378; ECF No. 25, PageID.591-592.) Luxshare also has
no reason to challenge Respondents’ claim that
Dekker and Marnat have none of the documents for
which they were subpoenaed, as these are maintained
by ZF US, making at least that issue a moot point.
(ECF No. 25, PageID.592-593.) In light of all this, the
Court views the question of who will be a participant
in the DIS arbitration as a mixed factor, which
warrants permitting some discovery as to the nonparticipants (Respondents Dekker and Marnat) but
curtailing discovery as to the intended participant
(Respondent ZF US). Moreover, the DIS Arbitration

32a
tribunal can always say that more should be required
or produced by the participants, as the 2018 DIS
Arbitration Rules related to “Establishing the Facts,”
namely Articles 28.1 and 28.2, do not restrict evidence
gathering; in fact, Article 28.2 provides that the
tribunal “may, inter alia, on its own initiative, appoint
experts, examine fact witnesses other than those
called by the parties, and order any party to produce
or make available any documents or electronically
stored data.” (See ECF No. 6-2, PageID.280-281
(emphasis added); see also ECF No. 25, PageID.568569, 588-589.) Additionally, even the expedited
proceedings rules which would apply to this
arbitration provide that, “[i]f the final award cannot
be made within the time limit set in Article 1 of this
Annex, the arbitral tribunal shall inform the parties
and the DIS in writing of the reasons therefor[e].”
(ECF No. 6-2, PageID.291, Art. 4.) As pointed out by
Respondents at oral argument, “[T]hat contemplates
. . . a situation where the arbitral tribunal believe[s]
that there are some important facts that they want or
need.” (ECF No. 25, PageID.568.)
b. Receptivity
“[A] court presented with a § 1782(a) request may
take into account the nature of the foreign tribunal,
the character of the proceedings underway abroad,
and the receptivity of the foreign government or the
court or agency abroad to U.S. federal-court judicial
assistance.” Intel Corp., 542 U.S. at 264. When the
Court ordered supplemental briefing, it asked the
parties to discuss “how a foreign arbitration tribunal
is treated under the receptivity prong . . . .” (ECF No.
25, PageID.600.)
The nature of the foreign tribunal and the
character of the proceedings underway abroad are a

33a
yet to be filed arbitration before DIS, which, as
alluded to above, is a private arbitration tribunal to
which the parties agreed to submit any disputes
under the Master Purchase Agreement (MPA). (ECF
No. 6-2, PageID.266 [20.10.2 Arbitration.].) As for
DIS’s receptivity to U.S. federal-court judicial
assistance, Respondents and Luxshare are at odds.
(See ECF No. 6, PageID.238-243; ECF No. 13,
PageID.341-345; ECF No. 14, PageID.376-377.)
The 2018 DIS Arbitration Rules are important, not
only for what they say but also for what they do not
say. (ECF No. 6-2, PageID.267-298.) Importantly, as
noted above, the 2018 DIS Arbitration Rules related
to “Establishing the Facts,” namely Articles 28.1 and
28.2, do not restrict evidence gathering. (See ECF No.
6-2, PageID.280-281; see also ECF No. 25,
PageID.568-569, 588-589.)
Respondents contend that “[c]ourts will quash
subpoenas where an arbitral panel appears
unreceptive to § 1782 discovery[.]” (ECF No. 18,
PageID.453-456.) See, e.g., In re Dubey, 949 F. Supp.
2d 990, 997 (C.D. Cal. 2013) (“there is currently no
evidence about the arbitral panel’s receptivity to the
requested materials.”). However, Luxshare notes
that “[d]istrict courts consistently grant § 1782
assistance to applicants for use in foreign arbitrations
where, like here, the respondents provide no
authoritative proof that the tribunal would reject the
evidence[,]” and points to, inter alia, Respondents’
admission at the hearing that “the DIS rules do not
contain an explicit restriction on the collection of
evidence[.]” (ECF No. 25, PageID.572 at 22:8–12;
ECF No. 19, PageID.479.) See, e.g., Gov’t of Ghana v.
ProEnergy Servs. LLC, No. 11-9002-MC-SOW, 2011
WL 2652755, at *4 (W.D. Mo. June 6, 2011) (“The

34a
intervening party, Balkan, has not provided the Court
with reliable evidence of non-receptivity in this case.
Even if Balkan could produce reliable evidence that
the arbitration tribunal would reject the evidence,
Balkan has not provided the Court with reliable
evidence that the High Court of Ghana would reject
the evidence.”). Without authoritative proof that the
DIS would reject Section 1782 discovery, and given
Masser’s declaration that “German Courts Admit
Evidence Obtained By Way Of U.S. Discovery
Applications[,]” (ECF No. 13-2, PageID.359-362
¶¶ 17-23) and the above-cited DIS Rules, the
Undersigned assumes that the DIS would receive it if
it were obtained and presented. (See also ECF No. 13,
PageID.342, 344.)
In sum, while DIS does not provide a generous
ration of discovery, it appears receptive to whatever
evidence a party wants to put in front of it, and it does
not impede proof-gathering.
In addition to the DIS Arbitration Rules not
prohibiting Section 1782 discovery, Section 1782 is an
independent statute; it is not beholden to the DIS
Arbitration Rules (ECF No. 6-2, PageID.267-298).
“Section 1782 is a provision for assistance to tribunals
abroad. It does not direct United States courts to
engage in comparative analysis to determine whether
analogous proceedings exist here.” Intel Corp., 542
U.S. at 263; see also Abdul, 939 F.3d at 729 (when
comparing the breadth of Section 1782(a) discovery to
Federal Arbitration Act discovery, the court
“decline[d] to conclude that simply because similar
discovery devices may not be available in domestic
private arbitration, § 1782(a) categorically does not
apply
to
foreign
or
international
private
arbitration.”).

35a
c. Circumvention
“[A] district court could consider whether the
§ 1782(a) request conceals an attempt to circumvent
foreign proof-gathering restrictions or other policies of
a foreign country or the United States.” Intel Corp.,
542 U.S. at 265. Respondents argue that Luxshare’s
application is an “end-run” around the DIS’s “more
restrictive discovery rules . . . [,]” while Luxshare
contends that it “is not circumventing proof-gathering
prohibitions[.]” (ECF No. 6, PageID.243-245; ECF
No. 13, PageID.345-349; ECF No. 14, PageID.375376.)
The Court views circumvention as a mixed factor
here. Respondents offer the declaration of Christoph
A. Baus to support the assertion that “U.S.-style
document discovery, with expansive categorial
document requests, is . . . foreign to German civil
procedure.” (ECF No. 6-2, PageID.256-258.) This
Court has previously made the same observation. See
financialright, 294 F. Supp. 3d at 736-737. But most
foreign legal systems do not embrace the broad form,
style, and scope of American civil discovery. See
Marcus, Ricard L., Retooling American Discovery for
the Twenty-First Century: Toward a New World
Order?, 7 Tul. J. Int’l & Comp. L. 153, 154 (1999)
(“Whatever the ulterior motives elsewhere, it is clear
that America’s ‘unique’ discovery has raised hackles
abroad.”) Indeed, “[t]he Restatement (and in turn, the
Supreme Court) also assumed a basic comparative
point: that American discovery laws are far broader
than, and in constant tension with, the vast majority
of other nations’ discovery systems.” Simowitz, Aaron
D., Transnational Enforcement Discovery, 83
Fordham L. Rev. 3293, 3322 (2015).
Indeed,
Luxshare’s own counsel acknowledged that he does

36a
not “know of any other court that has U.S.-style
depositions.” (ECF No. 25, PageID.591.) The inquiry
can hardly end on that basis alone. Even if there is
limited proof-gathering under the foreign arbitration
rules (i.e., even if the foreign arbitration does not
adopt U.S.-style litigation), Luxshare has offered the
declaration of Masser, who touches upon receptivity
in Germany in particular and asserts that “German
courts are nevertheless receptive to admitting
evidence obtained by pre-trial discovery in other
jurisdictions, including the U.S.” (ECF No. 13-2,
PageID.359 ¶ 17.) Presumably offered under Fed. R.
Civ. P. 44.1 as a witness to prove foreign law, Masser
(a member of the international law firm hired to
represent Luxshare in connection with contemplated
arbitration proceedings and who is qualified to
practice in Germany (ECF No. 1-6, PageID.87, ¶ 1))
painstakingly explains:2
18. As a general principle of German law,
German courts should exclude evidence only in
exceptional circumstances. ****For instance,
German courts must not per se dismiss
evidence that was obtained in violation of
provisions of the CCP but must assess its
admissibility on a case by case basis, balancing
the interests at stake. ****With regard to
evidence obtained in the course of a foreign
procedure, a court should refrain from
admitting the evidence only if admitting the
evidence were to violate German public policy.
****
2 Quoted in substantive part only, for ease on the reader,
with supporting citations to German law omitted, as indicated
by asterisks.

37a
19. The fact that evidence obtained in the
course of a foreign proceeding could not have
been obtained through the means of German
civil procedure does not render the evidence
inadmissible.
****Rather, a violation of
German public policy requires extreme
circumstances, e.g., that the evidence was
obtained by torture or that admitting the
evidence amounted to a violation of a
fundamental right. ****
20. In contrast to those examples, German
scholars agree that admitting evidence
obtained by way of a 1782 application does not
generally violate German public policy.
****The prevailing view is that Courts should
admit evidence obtained by way of U.S.
discovery generously since excluding any
evidence obtained by way of U.S. discovery per
se would violate the right to effective legal
protection and the right to be heard, which are
both granted by the German constitution and
incorporated in the CCP.
****Therefore,
Eschenfelder concludes that the exclusion of
evidence obtained in a 1782 application is “hard
to imagine” and will be “only rare”. ****
21. German state courts indeed admit evidence
obtained by way of discovery applications in the
U.S. For example, in a judgment, the Higher
Regional Court of Frankfurt am Main admitted
evidence obtained by way of Section 1782
discovery proceedings under U.S. law. The
court in that case held that it had “no concerns”
about the introduction of such evidence and
that use of such evidence in no way contravenes
“fundamental principles of German law”. ****

38a
22. In two further decisions by Higher Regional
Courts in Germany the issue was whether the
costs of the discovery applications were to be
reimbursed in the German proceedings. ****
While both of the courts held that the costs
were
nonrefundable
in
the
specific
circumstances, neither of the two took an issue
with the fact that the evidence obtained by way
of the discovery apparently had been admitted
into the proceedings in the first place.
23. If German state courts may admit evidence
obtained by way of 1782 applications in state
court proceedings, and they actually do admit
it, there is even less reason for an arbitral
tribunal seated in Germany to refrain from
admitting evidence obtained by way of 1782
applications given that arbitral tribunals have
broader discretion to establish the facts of a
case than state courts.
(Id., PageID. 359-362 ¶¶ 18-23 (emphases in original,
except for underscoring in ¶ 23).) As put forth at the
hearing, even Respondents seem to agree that Section
1782 discovery is not prohibited under German law or
by DIS Rules. (ECF No. 25, PageID.571.)
However, the discussion of “strategy” within the
motion papers and at the hearing is not helpful to
Luxshare’s cause. In their motion, Respondents
argue: “More than raising a ‘specter’ or ‘perception’
that it is trying to circumvent the DIS Rules, here,
Luxshare leaves the court with no doubt: it is
enlisting the Court to bail it out from the arbitration
rules for which it bargained. The Section 1782
framework does not permit such a tactic.” (ECF No.
6, PageID.245; see also ECF No. 25, PageID.571, 587.)

39a
In its response and at oral argument, Luxshare
explains its decision to file its Section 1782
application
before
commencing
arbitration,
elucidating that, with expedited arbitration – and
given the Section 1782 process and the possible
objections and appeals which may flow therefrom –
there may not be enough time to obtain this discovery
once the arbitration has commenced, or the
arbitration may be stalled by this process. (ECF No.
13, PageID.335-336; see also ECF No. 13-2, ¶¶ 27.)
Then, during the hearing, counsel for Luxshare and
the Court debated the “strategic” nature of Luxshare’s
application (ECF No. 25, PageID.581, 584-585),
prompting the Court to ask Luxshare’s counsel,
“[w]hy don’t we . . . have you start the arbitration
[and] wait to see what DIS wants[?][,]” (id.,
PageID.580). Petitioner’s counsel instead urged that
“[t]he better strategy here is to make sure that we
have all of our evidence and all of our evidence lined
up, submitted right when we commence the
arbitration.” (ECF No. 25, PageID.581; see also id.,
PageID.584-585, 588-589.)
Tellingly, Luxshare’s
counsel admitted that, “It’s unlikely we’d be able to
get this level of discovery in the DIS, which is exactly
why we’re seeking it here[,]” but argued that case law
suggests that this is “the exact situation [Section
1782] was designed to help.”
(ECF No. 25,
PageID.586.) The “strategic” use of Section 1782
perhaps tilts against Luxshare on the circumvention
factor, arguably supporting an inference of
circumvention;
then
again,
lawyers
make
strategic / tactical decisions all the time within the
bounds of the law.
(Compare ECF No. 25,
PageID.589, with id., PageID.595-596.)
As
Luxshare’s attorney further points out, “That doesn’t

40a
suggest, in any way, that we are somehow subverting
the Panel by seeking discovery here in the U.S. first.”
(ECF No. 25, PageID.589.) It may, or it may not. More
troubling, however, is the further admission by
Luxshare’s counsel that he “would absolutely agree
that if [Luxshare] were to seek this discovery, the DIS
. . . would not permit it.” (ECF No. 25, PageID.580.)
Nevertheless, even if this factor might thus weigh
in Respondents’ favor, circumvention is only one of
the discretionary factors under Intel. The Supreme
Court has not instructed that evidence of
circumventing the foreign tribunal’s discovery rules
forecloses any and all relief under 1782. This factor
alone is not the “end-all, be-all.” And while the Court
maintains a healthy caution about giving discovery
here that may not be readily or at all available under
the DIS Arbitration Rules, the Court also notes that
they neither foreclose nor prohibit such discovery. In
other words, the Court wants to be cautious by not
giving Petitioner full-blown Section 1782 discovery
for use in a tribunal – DIS Arbitration – that does not
expressly permit it, but the Court also certainly need
not completely bar the request where the rules do not
expressly prohibit it.
Before moving on to address the fourth and final
discretionary Intel factor, it is important to consider
certain other issues which are specific to this case
and/or on which the Court received further briefing.
4. Whether discovery and depositions
were part of the MPA?
Respondents offer the declaration of Christoph A.
Baus in support of their claim that “discovery and
depositions were not part of the agreement[.]” (ECF
No. 6-2, PageID.252-254.) Accordingly, the Court

41a
asked the parties to brief “case law on whether the
contract arbitration clause is prohibitive or should be
considered in a Section 1782 analysis.” Respondents
contend that “the parties’ arbitration provision
reflects their intent to prohibit access to § 1782
discovery[.]”
(ECF No. 18, PageID.448-450.)
Luxshare contends that “[t]he case law demonstrates
that this arbitration clause in no way prohibits or
limits Section 1782 discovery[;]” instead, “the absence
of any restrictions in the clause itself or in the DIS
Rules on the admissibility or collection of evidence
weighs in favor of this avenue of discovery.” (ECF No.
19, PageID.472-475.)
In fact, at the hearing,
Luxshare’s counsel posited that “[e]vidence collected
in connection with a 1782 application is admissible.”
(ECF No. 25, PageID.598.)
The Court agrees that “the arbitration clause does
not prohibit Section 1782 discovery.” (ECF No. 19,
PageID.472.) First, the clause’s plain language does
not bar such discovery.
(See ECF No. 6-2,
PageID.266.) If the parties had desired to stay away
from court on Section 1782 discovery, they could have
included appropriate language to that effect; they did
not. (See ECF No. 20, PageID.483-484 ¶ 6 [Masser
Decl.].) Or, alternatively, they could have included an
express limitation on the ancillary purposes for which
a party could seek a court’s assistance by including
words of limitation, such as “solely to compel
arbitration or enforce an arbitration award.” Second,
and as mentioned above, the 2018 DIS Arbitration
Rules related to “Establishing the Facts,” namely
Articles 28.1 and 28.2, do not restrict evidence
gathering. (See ECF No. 6-2, PageID.280-281; see
also ECF No. 25, PageID.568-569, 588-589.) Finally,
the Sixth Circuit permits § 1782 discovery for use in

42a
private commercial arbitration. Abdul, 939 F.3d at
714.
5. Whether the MPA’s arbitration clause
phrase “without recourse to the
ordinary courts of law” bars Luxshare
from seeking this Court’s assistance
with Section 1782 discovery?
Section 20.10 of the MPA provides that the
agreement “shall be governed by German law,” and
further provides as to arbitration:
All disputes arising under or in connection
with this Agreement (including any disputes
in connection with its validity) shall be
exclusively and finally settled by three (3)
arbitrators in accordance with the Arbitration
Rules of the German Institution of
Arbitration e.V. (DIS), including the
Supplementary
Rules
for
Expedited
Proceedings, as applicable from time to time
without recourse to the ordinary courts of law.
The place of the arbitration shall be Munich,
Germany. The language of the arbitral
proceedings shall be English. Documents in
the German language shall be translated into
the English language.
(ECF No. 6-2, PageID.266 (emphasis added); see also
ECF No. 6-2, PageID.271 [DIS Model Clauses].)
At the conclusion of the hearing, the Court sought
supplemental briefing on the meaning of the contract
language “[w]ithout recourse to the ordinary courts of
law[.]” (ECF No. 25, PageID.599.) Respondents
argue that “the MPA prohibits ‘recourse’ to a § 1782
petition[.]” (ECF Nos. 18, PageID.450-452; ECF No.
25, PageID.561, 567.) Luxshare contends that the

43a
phrase “without recourse to the ordinary courts of
law” does not “prohibit or limit Luxshare’s right to
obtain ancillary court relief such as Section 1782
discovery[,]” (ECF No. 19, PageID.475-478; ECF No.
25, PageID.578). The Court agrees that a 1782
motion seeks ancillary relief, as it is “supplementary”
or “subordinate” to the main action. Ancillary,
Black’s Law Dictionary (11th ed. 2019).3
On balance, the Court is persuaded by Luxshare’s
argument. First, as for Respondents’ reference to
“Luxshare’s unexplained delay in commencing an
arbitration,” (ECF No. 6, PageID.234), Petitioner
convincingly argues that “[u]nder German law,
Luxshare is well within the statute of limitations for
bringing its claim and has until the end of 2021 to file
for arbitration[,]” and that “a purported ‘delay’ in
bringing claims does not supply a basis to deny a
Section 1782 application[,]” (ECF No. 13,
PageID.335). (See also ECF No. 13-2, PageID.367
¶¶ 29-33 [Masser Jan. 8, 2021 Decl.].)
Second, notwithstanding the DIS Arbitration
Rules on “Expedited Proceedings” (ECF No. 6-2,
PageID.291), or Respondents’ “expedited arbitration”
argument (see, e.g., ECF No. 6, PageID.243-245; ECF
No. 14, PageID.380; ECF No. 25, PageID.561, 567), it
is not mutually exclusive to undergo expedited
arbitration and engage in Section 1782 discovery. As
Attorney Masser declares, Section 20.10.2 of the MPA
“does not preclude [Luxshare] from seeking interim
3

See also Suit, Black’s Law Dictionary (11th ed. 2019)
(defining “ancillary Suit” as “[a]n action . . . that grows out of and
is auxiliary to another suit and is filed to aid the primary suit,
to enforce a prior judgment, or to impeach a prior decree.”)
(emphasis added).

44a
relief or pursuing discovery applications in the
courts.” (ECF No. 13-2, PageID.358 ¶ 14.) See In re
Faiveley Transp. Malmo AB, 522 F. Supp. 2d 639,
641-642 (S.D.N.Y. 2007) (The injunctive relief being
sought “to maintain the status quo during the
pendency of [the] arbitration” would not jeopardize
the requirement that “‘[a]ny dispute arising out of or
in connection with this agreement shall be finally
settled by arbitration without recourse to the courts[,]”
(emphasis in original), and “it is undisputed that the
arbitration tribunal has not yet been convened, or its
members selected, and hence resort to ‘any competent
judicial authority for interim or conservatory
measures’ is precisely what is contemplated by the
very Rules that the parties agreed would govern.”)
(emphases added, external footnote omitted)). And,
Luxshare’s pursuit of this relief under 1782 before
commencing the arbitration is consistent with a
desire to keep the arbitration on an expedited track,
once it commences, by obtaining the discovery
beforehand.
Unlike the Federal Rules of Civil
Procedure, which explicitly prohibit discovery
without leave of the court until the suit is underway
and certain milestones have been passed, the DIS
Arbitration Rules do not appear to contain such a
prohibition. See Fed. R. Civ. P. 26(d)(1).
Finally, as the Court noted at the hearing, Black’s
Law Dictionary lists alternate definitions of recourse:
(1) “[t]he act of seeking help or advice[;]” and,
(2) “[e]nforcement of, or a method for enforcing, a
right.” Recourse, Black’s Law Dictionary (11th ed.
2019).
(ECF No. 25, PageID.578-579.)
Upon
consideration, the Court concludes – in context and
including consideration of what could have been but
was not addressed or excluded by the contract

45a
language – that the second of these definitions of
recourse is the one most applicable here. In other
words, the phrase “without recourse to the ordinary
courts of law” prevents Luxshare from coming to this
Court for adjudication on the merits, i.e., “a method
for enforcing, a right,” which Luxshare will do
through the yet to be filed arbitration. Nonetheless,
in the matter at hand, Luxshare is permitted to come
to this Court for ancillary proceedings, such as
assistance to compel arbitration to begin, i.e., an “act
of seeking help[,]” to procure evidence by compelling
Section 1782 discovery, or to enforce an arbitration
award. This interpretation is supported by Masser’s
declaration:4
4. [URL omitted] The suggested wording is in
pertinent part: “All disputes arising out of or in
connection with this contract or its validity shall be
finally settled in accordance with the Arbitration
Rules of the German Arbitration Institute (DIS)
without recourse to the ordinary courts of law.” By
this standard wording, the parties agree that the
main claim - if any - shall be arbitrated, not
litigated. The parties using this standard language
do not, however, generally exclude the assistance of
state courts. German state courts regularly assume
jurisdiction, even if such standard wording “without
recourse to the ordinary courts of law” is included.
****
5. Furthermore, German state courts do assume
jurisdiction in spite of an arbitration agreement if
the application brought concerns ancillary or
4 Quoted in substantive part only, for ease on the reader,
with supporting citations to German law omitted, as indicated
by asterisks.

46a
interim proceedings but not the main claim itself.
For example, the Higher Regional Court of Koblenz
decided that it “is permissible according to the
unanimous opinions of legal authorities and
jurisprudence” for a party to commence a legal
proceeding in a German state court to compel the
counter-party to preserve evidence for use in an
arbitration. **** This is now expressly set out in
German statutory law, sec. 1033 of the Code of Civil
Procedure (”CCP”), which provides for the
jurisdiction of state courts for interim relief
proceedings where the substantive dispute is
controlled by an arbitration agreement and is
confirmed by decisions of courts throughout
Germany. **** The admissibility of interim relief
in spite of an arbitration clause is, furthermore,
expressed by the German legislature in the
reasoning for the revised provisions in CCP. ****
Finally, according to some prominent authors, sec.
1033 CCP regarding the right to state court relief
for interim, non-substantive proceedings where the
parties have an arbitration agreement is mandatory
and cannot be excluded even by virtue of an express
party agreement to the contrary. ****
6. Generally, when interpreting an arbitration
agreement pursuant to German statutory law and
principles, one has to consider the parties’ intention
at the time of concluding the contract (Sections 133
and 157 German Civil Code). **** Here, the parties
chose to include the DIS standard wording,
amended by referring to the expedited procedure.
As can be seen from the jurisprudence cited above,
such standard wording is not to the exclusion of
state court support. Had the parties wanted to
exclude any recourse to the ordinary courts for not

47a
only for the main claim for also for everything else,
including evidence preservation and other interim
relief applications, they would have needed to have
expressly agreed on this and expressly stated it.
But, as stated above, some authors suggest that
parties cannot make such agreements because it is
contrary to public policy.
(ECF No. 20, PageID.482-484 ¶¶ 4-6 [Masser Decl.].)
6. Whether a decision on Luxshare’s
motion should be stayed pending the
Supreme
Court’s
decision
in
Servotronics, Inc.?
After Petitioner and Respondents filed their
supplemental briefs, the Supreme Court granted the
petition for a writ of certiorari in Servotronics, Inc.,
2021 WL 1072280, at *1. The question presented is:
Whether the discretion granted to district
courts in 28 U.S.C. § 1782(a) to render
assistance in gathering evidence for use in “a
foreign or international tribunal” encompasses
private commercial arbitral tribunals, as the
Fourth and Sixth Circuits have held, or
excludes such tribunals without expressing an
exclusionary intent, as the Second, Fifth, and,
in the case below, the Seventh Circuit, have
held.
See
https://www.supremecourt.gov/qp/20-00794qp.
pdf (emphasis added).5 While Respondents have
alerted the Court of this pending matter (ECF No. 22),
5

Interestingly, the question on which certiorari was
granted appears to be consistent with the discussion above
concerning the meaning of “recourse” to the ordinary courts of
law, i.e., that 1782 merely provides “assistance” via an ancillary
action to the main action.

48a
Luxshare contends that the Sixth Circuit’s decision in
Abdul remains binding and that “the grant of
certiorari in Servotronics should bear no weight on
the Respondents’ pending motion to quash[,]” (ECF
No. 23). Upon consideration, the Court declines to
stay today’s decision. It appears that the Supreme
Court will consider Servotronics during the 2021-2022
term. As Luxshare points out, a decision could be
issued as late as June 30, 2022. (ECF No. 23,
PageID.497.) Until then, Abdul is binding on this
Court. Given the potential length of time before the
Supreme Court issues its decision in Servotronics, the
fact that there is binding precedent from the Sixth
Circuit, and the need for swifter action and greater
certainty within the timeframe for the filing and
pursuit of what will be expedited arbitration
proceedings in Germany, the Court declines to
exercise its discretion to stay the case pending the
Supreme
Court’s
decision
in
Servotronics.6
Furthermore, the limited scope of the discovery which
this Court has decided to grant takes the uncertainty
of how the Supreme Court will rule on this issue into
account – in conjunction with the discretionary Intel
factors – permitting some, but by no means all of the
requested discovery, and recognizing that both DIS

6

Notably, the expedited arbitration rules call for a
decision within six months of the case management conference,
with the case management conference to be held “in principle
within 21 days” after the arbitral tribunal is constituted. (ECF
No. 6- 2, PageID.280, § 27.2; id., PageID.291 Annex 4, Art. 1.)
Since the statute of limitations dictates that this arbitration
proceeding be commenced by December 2021, it will be well
underway and may well be nearing completion by the time the
Supreme Court renders its decision in Servotronics.

49a
and the Supreme Court may give further guidance in
the future.
7. The final Intel factor
a. Unduly intrusive or burdensome
“[U]nduly intrusive or burdensome requests may
be rejected or trimmed.” Intel Corp., 542 U.S. at 265.
“In determining whether such requests are intrusive
or burdensome, the statute itself instructs that, ‘[t]o
the extent that the order does not prescribe otherwise,
the testimony or statement shall be taken, and the
document or other thing produced, in accordance with
the Federal Rules of Civil Procedure.’” financialright,
294 F. Supp. 3d at 738-39 (quoting 28 U.S.C.
§ 1782(a)). “Requests are unduly intrusive and
burdensome where they are not narrowly tailored,
request confidential information and appear to be a
broad ‘fishing expedition’ for irrelevant information.”
In re Ex Parte Application of Qualcomm Incorporated,
162 F.Supp.3d 1029, 1043 (N.D. Cal. 2016) (footnote
omitted); see also Surles ex rel. Johnson v. Greyhound
Lines, Inc., 474 F.3d 288, 305 (6th Cir. 2007).
Respondents and Luxshare dispute whether
Luxshare’s subpoenas are overly broad, invasive, or
unduly burdensome. (ECF No. 6, PageID.246-248;
ECF No. 13, PageID.349-350.)
b. What is the proper scope of
discovery?
“Unless otherwise limited by court order, the scope
of discovery is as follows:
Parties may obtain discovery regarding any
nonprivileged matter that is relevant to any
party’s claim or defense and proportional to the
needs of the case, considering the importance of
the issues at stake in the action, the amount in

50a
controversy, the parties’ relative access to
relevant information, the parties’ resources, the
importance of the discovery in resolving the
issues, and whether the burden or expense of
the proposed discovery outweighs its likely
benefit.
Information within this scope of
discovery need not be admissible in evidence to
be discoverable.
Fed. R. Civ. P. 26(b)(1). See also In re Sargeant, 278
F. Supp. 3d at 824 (“while this Court does not reach
consideration of the Intel factors, Rule 26(b)
circumscribes the scope of discovery to that which is
‘proportional to the needs of the case.’”) (quoting Fed.
R. Civ. P. 26(b)(1)).
Anticipating the possibility that the Court might
permit some discovery, the Court’s February 24, 2021
text-only order also provided: “although preserving
ZF’s objection that it need not produce anything . . . :
(1) the parties shall undertake another meet and
confer conference to discuss what they can jointly
agree upon and what they cannot agree upon if the
Court were to order production in response to the
subpoenas (with reference to the fourth Intel factor);
and, (2) submit another joint statement reflecting the
parties conditional agreements (subject to ZF’s
preserved objections) and proposals.”
On March 19, 2021, the parties reported that they
“were unable to reach an agreement regarding the
proper scope of discovery that might be permitted
pursuant to 28 U.S.C. § 1782.”
(ECF No. 21,
PageID.487 ¶ 3.) They have provided detail about
their attempts to negotiate the proper scope of
discovery.
(ECF No. 21, PageID.487-493.)
Respondents’ initial, albeit conditional, proposal is for
Petitioner “to make requests for specific documents

51a
created between May 1, 2017 and August 30, 2017[,]”
as “such a proposal is consistent with the scope of any
discovery that a DIS Panel would even consider in any
future arbitration.”
(ECF No. 21, PageID.487.)
Among other things, Luxshare points out that “the
scope of Section 1782 discovery is governed by the
Federal Rules of Civil Procedure and not the DIS
Rules.” (ECF No. 21, PageID.490.) The Court is well
aware of this and has considered, in addition to the
question of relevance discussed throughout this
opinion, each of the proportionality factors listed in
Fed. R. Civ. P. 26(b)(1). The rulings which follow
attempt to resolve this discovery dispute in a manner
that is “proportional to the needs of the case,” noting
“the importance of the issues at stake in the action,”
the indisputably large amount in controversy –
“nearly a billion dollars pursuant to the terms of” the
MPA (ECF No. 1, PageID.9), Luxshare’s relative lack
of access to much of the relevant information, the
seemingly large resources of both sides, and “the
importance of the discovery in resolving the issues[.]”
Fed. R. Civ. P. 26(b)(1).
Further, upon consideration of the Intel factors,
taking cognizance of the potential for the Supreme
Court to foreclose § 1782 discovery in foreign
arbitrations without staying this application in its
entirety, and with due deference to the
“circumvention”
and
“unduly
intrusive
or
burdensome” factors, the Court concludes that
discovery is warranted, but in a more limited scope
than Luxshare requests in its subpoenas.
i. The temporal scope
First, as for the temporally appropriate period,
instead of Respondents’ suggestion that it should be
cut off upon the signing of the MPA, the Court finds

52a
it appropriate to “shorten the temporal scope of all of
the document requests to the 16-month period of
December 2016 to the April [27, ]2018 closing[,]” as
offered by Luxshare. (ECF No. 21, PageID.488-489,
491-492.)7 Luxshare persuasively argues that “[t]he
period between signing and closing is a critical period
in any fraud case arising from an M&A transaction,
and internal ZF US communications in that period
may certainly reflect discussion of the fraud[,]” and
that “[e]ven more fundamentally, the MPA was
amended shortly before closing, on April 14, 2018.”
(Id., PageID.493; see also ECF No. 1-2, PageID.44
¶ 14.) (See also ECF No. 25, PageID.561, 590-591,
597.) The Court recognizes from experience that
misrepresentation as to material facts upon which a
party to a contract may rely to its detriment may well
occur during post-contract, pre-closing due diligence,
as sometimes occurs in a pre-closing home inspection
or the sharing of a business’s financial ledger.
ii. Scope of document searches
Second, the document searches shall be limited to
“(i) the emails of Respondent . . . Marnat and [one]
7

The beginning of this time frame allows for a brief period
before the April 2017 commencement of the “Due Diligence
Period” and accounts for the fact that the 2016 actual financials
were part of the disclosures. (ECF No. 1-5, PageID.80-81 [Huang
Oct. 5, 2020 Decl., ¶¶ 7 & 10].) It is also what Luxshare
requested as the starting point, albeit not the endpoint specified
in its subpoenas, which, in several places and inconsistent with
the instructional section, sought information “between
December 1, 2016 and the date of this Subpoena . . . .” (See, e.g.,
ECF No. 1-2, PageID.50, No. 8 (emphasis added); ECF No. 25,
PageID.590-591.) And, while Respondents take issue with
having the closing date as the endpoint, they do not take issue
with the December 2016 starting point.
(ECF No. 21,
PageID.489.)

53a
other custodian[],” and (ii) “documents contained in
any shared data drive or other reasonably accessible
centrally maintained sources.”
(ECF No. 21,
PageID.491.) The Court will not require Dekker to
serve as a document custodian, as he provided an
unrebutted declaration, which states:
• To the extent that while working at ZF US I
possessed any documents related to the
Luxshare
transaction
or
otherwise
responsive to the subpoena served on me in
this case, I left these documents in the
possession of ZF US when I stopped working
at ZF US.
• When I left ZF US, I did not retain any
documents related to the Luxshare
transaction or otherwise responsive to the
subpoena . . . .
• I do not have in my possession any
documents related to the Luxshare
transaction or otherwise responsive to the
subpoena served on me in this case.
(ECF No. 6-3, PageID.300, ¶¶ 4-6.) In other words,
only one document custodian besides Marnat will be
permitted. Additionally, as both sides suggested
(ECF No. 21, PageID.489, 491, 492), the parties shall
agree to a list of search terms.
Moreover, while the Court agrees with
Respondents that the document requests are
overbroad in several respects, Respondents made no
effort to convince the Court that the requests are
“unduly burdensome,” despite alluding to that
contention in a mere topic heading. (ECF No. 6,
PageID.246.) The Court requires significantly more
than that to contest discovery on this basis, as it is

54a
“well-settled law that, ‘[i]f an objection is interposed
based on an alleged undue burden, the objecting party
must make ‘a specific showing, usually . . . by
affidavit, of why the demand is unreasonably
burdensome.’” State Farm Mut. Auto. Ins. Co. v. Elite
Health Centers, Inc., 364 F. Supp. 3d 758, 766 (E.D.
Mich. 2018) (citation omitted). That did not happen
here. And, “the fact that it will be either bothersome
or burdensome to respond to a discovery request does
not necessarily mean that it will be unduly so.” State
Farm, 364 F.Supp.3d at 767 (emphasis in original).
Respondents’ contention that the requests are too
broad has greater traction, although the requests are
relatively targeted compared to much of the largescale commercial litigation seen by this Court on a
regular basis. For example, Respondents protest that
they ought not be required to reveal communications
with other bidders or banks concerning the “Big
Three” U.S. automakers, i.e., the “Relevant
Customers.” (ECF No. 6, PageID.247.) The Court
disagrees. Those communications could reveal the
exchange of information – particularly financial
information – that runs contrary to the information
provided to and reasonably relied upon by Luxshare,
perhaps constituting evidence of fraud. Nonetheless,
some of Luxshare’s definitions of the key entities and
some of Luxshare’s requests are unreasonably broad,
and the litany style used to define certain common
words, such as the word concerning, go so far afield as
to make no sense. With that in mind, Luxshare will
be required to make the following deletions from its
subpoenas: (a) “edifying” and “starting” from the
definition of “concerning” (id., ¶ 6); (b) “affiliates,”
“predecessors,”
“successors,”
“representatives,”
“agents,” “consultants,” and “advisors” from the

55a
definitions of “FCA,” “Ford,” and “GM” (id., ¶¶ 9, 11,
12); (c) the errant paragraph (id., ¶ 16);
(d) “including, but not limited to” from Request Nos.
2 & 3; and, (e) “or the information contained therein”
from Request No. 4. Further, Request No. 6 will be
limited to communications concerning the “past or
future sales or sales volumes” with respect to the
Relevant Customers. In making these adjustments,
the Court takes into consideration both the purported
procedure in Germany that does not permit
“categories of discovery,” as Respondents point out
(ECF No. 6, PageID.248), and the notion that “courts
are counseled to pare down the requests rather than
denying [them] outright[,]” as Luxshare advocates
(ECF No. 13, PageID.349). See Heraeus Kulzer,
GmbH v. Biomet, Inc., 633 F.3d 591, 598 (7th Cir.
2011) (In a § 1782 discovery matter, “[i]f it’s asking for
too much, the district court can and should cut down
its request, but not to nothing, as it did. That was
unreasonable, and therefore reversible.”).
iii.
Depositions
Similarly, with respect to depositions, the Court is
inclined to give some, but not all. In considering the
question of depositions, the Court bears in mind that:
(1) the parties to the MPA contracted for arbitration
in Germany, not full-blown U.S. litigation; (2) they
agreed to do this on an “expedited,” i.e., streamlined
basis; (3) Luxshare believes it has “evidence to
support [its] claims right now[,]” but just “need[s] that
discovery to make sure that [it has] the strongest
possible pleading when [it] commence[s] the
arbitration[,]” (ECF No. 25, PageID.581-582
(emphasis added)); and, (4) there needs to be a
balance between the Intel Court’s concern that
nonparties’ testimony may be unattainable absent

56a
relief under § 1782 and the duty of both the
subpoenaing party and the Court to “avoid imposing
undue burden . . . on a person subject to the
subpoena[,]” Fed. R. Civ. P. 45(d)(1). This last
consideration is especially noteworthy where
witnesses face the prospect of being dragged into
litigation involving their former employer. With all of
this in mind, the Court has determined that one
deposition is enough. Accordingly, the Court will
permit Luxshare – at its own choosing – to take the
deposition of either Respondent Gerald Dekker or
Respondent Christophe Marnat. It may not take both.
II. ORDER
Accordingly, Respondents’ motion to quash
improper subpoenas (ECF No. 6) is GRANTED IN
PART and DENIED IN PART. Consistent with the
foregoing, ZF US and Marnat SHALL respond to the
respective subpoenas (ECF Nos. 1-2, 1-3, 1-4)
consistent with this opinion by a reasonable deadline
to be mutually worked out by counsel.
IT IS SO ORDERED.8
Dated: May 27, 2021

8

s/ Anthony Patti
U.S. MAGISTRATE JUDGE

The attention of the parties is drawn to Fed. R. Civ. P.
72(a), which provides a period of fourteen (14) days after being
served with a copy of this order within which to file objections
for consideration by the district judge under 28 U.S.C.
§ 636(b)(1).

57a
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
LUXSHARE, LTD.,
Petitioner,
v.

Case No. 2:20-mc51245

ZF AUTOMOTIVE US,
INC., et al.,

Honorable Laurie J.
Michelson

Respondents.

Magistrate Judge
Anthony P. Patti

OPINION AND ORDER DENYING MOTION
TO STAY [30] AND GRANTING MOTION TO
COMPEL [31]
2021 WL 3629899
As a result of a business dispute involving
hundreds of millions of dollars in potential damages,
Luxshare, LTD intends to initiate, by the end of the
year, an arbitration proceeding in Munich, Germany
against ZF Automotive US, Inc. Luxshare came to
this federal court in the Eastern District of Michigan
pursuant to 28 U.S.C. § 1782 seeking discovery for the
arbitration from ZF US and two of its senior officers
who reside in the District.
Some procedural history tees up the motion now
before the Court. This Court referred Luxshare’s
petition to Magistrate Judge Anthony P. Patti. He
reviewed the briefing, conducted an extensive
hearing, and requested supplemental briefing, before
ultimately granting discovery in limited scope. Judge
Patti permitted Luxshare to obtain limited email

58a
production and to take one deposition. (ECF No. 26.)
ZF US filed objections to Judge Patti’s opinion and
order, which this Court reviewed under an abuse of
discretion standard. The Court found no legal error
or abuse of discretion in Judge Patti’s order and
overruled ZF US’s objections. (ECF No. 29.) Even so,
ZF US has not produced any discovery materials;
instead it filed a motion to stay. (ECF No. 30.) On
the same day, Luxshare filed a motion to compel.
(ECF No. 31.) ZF US has since filed a notice of appeal
(ECF No. 32) and a motion to stay with the Sixth
Circuit, Motion, Luxshare, Ltd. v. ZF Automotive US,
Inc., No. 21-2736 (6th Cir. July 23, 2021). A few days
later, the Sixth Circuit ordered ZF US to show cause
why the appeal should not be dismissed for lack of
jurisdiction. Luxshare, Ltd. v. ZF Automotive US,
Inc., No. 21-2736 (6th Cir. July 27, 2021) (show cause
order). ZF US has filed a response, but the Sixth
Circuit has not yet ruled. See Response, Luxshare,
Ltd. v. ZF Automotive US, Inc., No. 21-2736 (6th Cir.
July 30, 2021).
In the meantime, ZF US’s motion to stay and
Luxshare’s motion to compel are before this Court.
For the reasons that follow, the Court denies ZF US’s
motion to stay. The Court grants Luxshare’s motion
to compel and orders ZF US to produce the discovery
within 14 days of a ruling from the Sixth Circuit
denying the motion to stay or dismissing the appeal.
I. The Motion to Stay
The Court begins with ZF US’s motion to stay the
case pending appeal. This Court has discretion to
stay its ruling and ZF US “bears the burden of
showing that the circumstances justify an exercise of
[ ] discretion.” Nken v. Holder, 556 U.S. 418, 433−34
(2009). The Court considers four factors to determine

59a
whether a stay should be issued pending appeal:
(1) whether the stay applicant has made a strong
showing that it is likely to succeed on the merits on
appeal; (2) whether the applicant will be irreparably
injured absent a stay; (3) whether issuance of the stay
will substantially injure the other parties interested
in the proceeding; and (4) whether the public interest
is served. Hilton v. Braunskill, 481 U.S. 770, 776
(1987); JSC MCC EuroChem v. Chauhan, No. 185890, 2018 WL 9650037, at *1 (6th Cir. Sept. 14,
2018).
A.
For a stay pending appeal, the first factor,
likelihood of success on the merits, essentially asks
whether there is “a likelihood of reversal.” Michigan
Coal. of Radioactive Material Users, Inc. v.
Griepentrog, 945 F.2d 150, 153 (6th Cir. 1991). To
justify a stay the movant “need not always establish
a high probability of success on the merits.” Michigan
Coal., 945 F.2d at 153 (internal citations omitted).
But the “probability of success that must be
demonstrated is inversely proportional to the amount
of irreparable injury plaintiffs will suffer absent the
stay” and the movant is “always required to
demonstrate more than the mere possibility of success
on the merits.” Id. (internal citations and quotation
marks omitted). As will be discussed below, ZF US
has not demonstrated any irreparable harm, so it
needs to show a high likelihood of success on this
factor.
ZF US argues that it has a likelihood of success on
the merits of its appeal because (1) the Supreme
Court has granted review of a case involving the same
key issue presented in this case, and (2) ZF US’s

60a
appeal to the Sixth Circuit involves issues of first
impression.
In March 2021, the Supreme Court granted
certiorari in Servotronics, Inc. v. Rolls-Royce PLC to
address a circuit split over whether § 1782
encompasses private commercial arbitral tribunals.
Servotronics, Inc. v. Rolls-Royce PLC, 141 S. Ct. 1684
(2021).
If § 1782 does not encompass private
commercial arbitral tribunals, Luxshare would not be
entitled to the discovery granted in this case.
But the current law in the Sixth Circuit is that
§ 1782 discovery may be used for private commercial
arbitrations. See Abdul Latif Jameel Trans. Co. Ltd.
v. FedEx Corp., 939 F.3d 710, 723 (6th Cir. 2019). The
Supreme Court’s grant of certiorari in Servotronics
does not change this binding precedent. See In re
Bradford, 830 F.3d 1273, 1275 (11th Cir. 2016)
(“[G]rants of certiorari do not themselves change the
law, and must not be used by courts as a basis to grant
relief that would otherwise be denied.” (internal
citation and quotation marks omitted)). So if the
Sixth Circuit rules on ZF US’s appeal based on the
current binding precedent, ZF US has very little
likelihood of success on the merits.
Another possibility is that the Sixth Circuit will
not decide ZF US’s appeal until after the Supreme
Court’s ruling in Servotronics. But even considering
the possibility that the Sixth Circuit law could change
as a result of the Supreme Court’s ruling, many
unknowns remain. At this point, it is not even clear
that the case will be heard by the Supreme Court as
scheduled in October 2021. The respondents in
Servotronics recently filed a brief arguing that the
case has become moot and asking the Supreme Court
to dismiss the case. (ECF No. 35, PageID.824) (citing

61a
Brief for Respondent at 12-14, Servotronics, Inc. v.
Rolls-Royce PLC, No. 20-794 (June 21, 2021).) Even
if the case is heard in October, the decision could come
as late as June 2022, six months after Luxshare’s
deadline to initiate arbitration that will be expedited.
And of course, the Supreme Court may interpret
§ 1782 as the Sixth Circuit has. Luxshare raises an
additional relevant piece of information: In the
parallel Servotronics case decided by the Fourth
Circuit, the Supreme Court recently declined to stay
the Fourth Circuit’s order allowing discovery under
§ 1782. See Rolls-Royce PLC v. Servotronics, Inc., No.
20A160, 2021 WL 1618133 (U.S. Apr. 27, 2021).
In sum, Sixth Circuit law controls unless the
Supreme Court says otherwise. Under current Sixth
Circuit law, ZF US has little likelihood of success.
And the Supreme Court may not say otherwise until
after the arbitration takes place or the Sixth Circuit
rules on ZF US’s appeal. Moreover, it may not say
otherwise at all, and instead adopt the view of the
Sixth Circuit. So the grant of certiorari only shows
that ZF US has, at best, a possibility, not a likelihood,
of succeeding on appeal.
ZF US’s second likelihood-of-success argument
fares no better. ZF US argues that it can satisfy the
likelihood-of-success factor simply by showing that
there are substantial legal questions or matters of
first impression at issue. (ECF No. 30, PageID.734.)
But this is not a position endorsed by the Sixth
Circuit. Even on questions of first impression, ZF US
must demonstrate a likelihood of reversal to a degree
inversely proportional to the irreparable harm it
would suffer absent a stay. See Michigan Coal., 945
F.2d at 153. Again, as discussed below, ZF US has
not demonstrated any irreparable harm, so it would

62a
need to show a high likelihood of success on this
factor.
To determine ZF US’s likelihood of success, it is
important to consider the standard of review. A
district court’s authorization of discovery under
§ 1782 is reviewed for an abuse of discretion. JSC,
2018 WL 9650037, at *1. “An abuse of discretion
occurs only ‘when the district court relies on clearly
erroneous findings of fact, . . . improperly applies the
law, . . . or . . . employs an erroneous legal standard.’”
Id. (quoting Barner v. Pilkington N. Am., Inc., 399
F.3d 745, 748 (6th Cir. 2005)).
Considering ZF US’s three supposed questions of
first impression under the abuse of discretion
standard, ZF US has not shown a likelihood of success
on any of them. For the first two issues, ZF US does
not allege that the Court made a clearly erroneous
finding of fact or an incorrect legal ruling, so it has
not shown any likelihood that the Sixth Circuit would
overrule the Court’s order on either of these bases.
For the third issue, ZF US does argue that the
Court employed the wrong legal standard by
reviewing the magistrate judge’s decision under the
“clearly erroneous or contrary to law” standard.
(ECF No. 30, PageID.739.) ZF US argues that the
magistrate judge’s decision should be considered
dispositive and thus must be reviewed de novo. (Id.)
True, the Sixth Circuit has not ruled on this question.
But in its own order, this Court considered this
question and noted that although no appellate court
has addressed the issue, most lower courts have found
that such rulings are not dispositive. Luxshare, LTD.
v. ZF Auto. US, Inc., No. 2:20-MC-51245, 2021 WL
2705477, at *2 (E.D. Mich. July 1, 2021) (citing In re
Hulley Enters., 400 F. Supp. 3d 62, 71 (S.D.N.Y.

63a
2019)). ZF US has not presented any evidence to
suggest that the Sixth Circuit will rule differently.
Instead, ZF US argues, without any case law in
support, that because a decision on a motion to quash
is final and appealable, it must also be dispositive.
(ECF No. 30, PageID.739.) But, in fact, in the show
cause order issued by the Sixth Circuit in this case,
the court of appeals questioned whether this Court’s
ruling is even appealable. Luxshare, Ltd. v. ZF
Automotive US, Inc., No. 21-2736 (6th Cir. July 27,
2021) (show cause order). The Sixth Circuit’s denial
of a stay in JSC MCC EuroChem provides an
additional clue. In that case, the district court
similarly reviewed the magistrate judge’s order under
an abuse of discretion standard and the Sixth Circuit
did not raise this as an issue in its decision denying a
stay. 2018 WL 9650037, at *1.
So although the standard of review for a
magistrate judge’s order on a motion to quash a
subpoena pursuant to § 1782 is an issue of first
impression in the Sixth Circuit, ZF US has not
presented any evidence of “more than the mere
possibility of success on the merits” of this question.
Because § 1782 extends to private arbitration
under binding precedent that currently applies to ZF
US’s appeal and it is uncertain when and what the
Supreme Court might rule in Servotronics, and
because ZF US has not shown a high likelihood that
this Court otherwise erred in its ruling, the Court
finds that the first factor, likelihood of success on
appeal, does not favor a stay.
B.
The Court next considers whether ZF US would be
irreparably harmed in the absence of a stay and

64a
balances the degree of potential harm with the
likelihood of success on appeal discussed above. “In
evaluating irreparable harm, we consider: the
‘substantiality of the injury alleged’; whether the
injury will likely occur; and whether the movant
provided adequate proof of the alleged injury.” JSC
MCC EuroChem, 2018 WL 9650037, at *2 (quoting
Mich. Coalition, 945 F.2d at 154).
For a multi-billion-dollar company like ZF US, the
time and money required to produce a limited
category of emails and conduct a single deposition is
clearly not irreparable harm.
See Sampson v.
Murray, 415 U.S. 61, 90 (1974) (“Mere injuries,
however substantial, in terms of money, time and
energy necessarily expended in the absence of a stay,
are not enough.” (internal citation omitted)). But ZF
US argues that the source of irreparable harm is that
if ZF US produces the discovery materials now,
Luxshare will immediately initiate arbitration and
use the materials against ZF US. And the expedited
arbitration proceedings will likely conclude before the
Sixth Circuit rules on ZF US’s appeal and the
Supreme Court rules on Servotronics. So, ZF US
argues, there would be no remedy if it is later
determined that Luxshare was not entitled to the
discovery.
But even if a discovery order cannot be undone, it
does not automatically follow that this creates
irreparable harm. The worst case for ZF US is that it
has to produce limited discovery that it should not
have to—but as just stated, that is not a substantial
cost for a company like ZF US. ZF US cites several
cases that discuss the irreparable harm that can be
caused by an “erroneous forced disclosure” of
confidential or privileged information. In re Pros.

65a
Direct Ins. Co., 578 F.3d 432, 438 (6th Cir. 2009); see
also In re Lott, 139 F. App’x. 658, 662 (6th Cir. 2005);
In re Ford Motor Co., 110 F.3d 954, 962–64 (3d Cir.
1997). In the case of confidential or privileged
information there is an inherent harm in wrongfully
disclosing “information that is claimed to be protected
by the Constitution, privilege, or more general
interests in privacy.” In re Pros. Direct Ins. Co., 578
F.3d 432, 438 (6th Cir. 2009) (quoting 16 Wright &
Miller, Federal Practice & Procedure § 3935.3). And
in the case of disclosure of privileged information,
there is a harm done to the privilege itself, which
cannot be cured. In re Lott, 424 F.3d 446, 452 (6th
Cir. 2005).
But in this case, the discovery ordered by the
Court does not include any privileged or confidential
materials. Reading between the lines, ZF US seems to
be concerned about the harm that might accrue to ZF
US if Luxshare discovers evidence supportive of its
claims and uses it against ZF US in the arbitration.
But ZF US cannot claim that it would be harmed by
the disclosure of evidence of its own wrongdoing that
is not privileged or confidential. So because the
discovery is not privileged or confidential, and ZF US
offers no other argument for how the production of
this discovery would cause irreparable harm, ZF US
has not met its burden on this factor.
ZF US’s final argument, that it will be harmed by
not having reciprocal discovery, is unavailing. ZF US
did not ask for reciprocal discovery.
In sum, the Court agrees with its sister court in
the Southern District of New York that “a
requirement to produce documents, at least absent a
claim of privilege or sensitivity, is not generally the
type of injury that is irreparable.” In re Platinum

66a
Partners Value Arbitrage Fund LP, 2018 WL
3207119, at *6 (S.D.N.Y. June 29, 2018).
Considering the low likelihood of success on the
merits its appeal along with the absence of any
irreparable harm, the outcome of ZF US’s motion to
stay seems apparent.
But in the interest of
thoroughness, the Court will briefly address the final
two stay factors.
C.
The third factor is whether a stay will
substantially injure the other parties interested in
the proceeding. Both parties agree that Luxshare
could be harmed if a stay were granted without tolling
the statute of limitations for initiating arbitration by
the end of 2021. In its motion, ZF US states that if a
stay is granted it agrees that the statute of limitations
will be tolled pending the Sixth Circuit appeal. (ECF
No. 30, PageID.745.) Luxshare is skeptical of ZF US’s
offer because it was only made in their brief without
any sort of binding declaration or agreement. (ECF
35, PageID.830.) The Court also notes that neither
party has made it clear whether the private
arbitration tribunal would accept a tolling agreement.
Regardless, Luxshare argues that it would be
harmed even if the statute of limitations were tolled.
First, production of the discovery has already been
delayed.
And particularly in the case of the
deposition, further delay comes with the risk of fading
memory or witness incapacity. As discussed above, it
could be 10 months before the Supreme Court issues
a decision in Servotronics. And the timeline for ZF
US’s appeal is unknown. Luxshare claims that ZF US
is responsible for hundreds of millions of dollars of
damages. So Luxshare could be substantially injured

67a
if it is denied access to discovery it is ultimately
entitled to. Given these risks, the possible harm to
Luxshare if a stay is granted is at least as great as the
risk to ZF US in the absence of a stay.
D.
Finally, the Court must consider whether the
public interest would be served by a stay. ZF US
argues that third parties should be protected from the
burden of sitting for a deposition, but the two
potential deponents here are both parties to this case.
On the other hand, Luxshare argues that a stay of
discovery would frustrate the twin aims of § 1782.
These twin aims are “providing efficient assistance to
participants in international litigation and
encouraging foreign countries by example to provide
similar assistance to our courts.” In re Application to
Obtain Discovery for Use in Foreign Proc., 939 F.3d
710, 730 (6th Cir. 2019) (internal citation omitted); see
also Nikon Corp. v. GlobalFoundries U.S., Inc., No.
17-MC-80071-BLF, 2017 WL 4865549, at *3 (N.D.
Cal. Oct. 26, 2017) (“[The dual] purposes would be
frustrated by a stay order.”). A number of courts have
held that the public interest weighs against a stay of
discovery in a § 1782 case because discovery “supports
the truth in foreign actions.” In re Bracha Found., No.
2:15-MC-748, 2015 WL 6828677, at *4 (N.D. Ala. Nov.
6, 2015); see also In re Application of Procter &
Gamble Co., 334 F. Supp. 2d 1112, 1118 (E.D. Wis.
2004) (“[T]he public interest favors allowing the
discovery because doing so furthers the search for the
truth in the foreign actions.”); In re Sergeeva, No.
1:13-CV-3437, 2015 WL 13774466, at *3 (N.D. Ga.
July 20, 2015) (“[A]llowing the information to be
produced will assist in the foreign tribunal’s search
for the truth.”). The Court agrees that the public’s

68a
interest in truth and efficiency in foreign actions and
in encouraging mutual assistance between foreign
tribunals weighs against a stay in this case.
***
ZF US’s low, or at best uncertain, likelihood of
success on the merits of its appeal, the absence of
irreparable harm to ZF US absent a stay, the harm
that Luxshare could suffer if discovery is stayed, and
the public interest weigh against a stay. ZF US’
motion to stay will be thus be denied.
II. The Motion to Compel
Also before the Court is Luxshare’s motion to
compel the discovery previously ordered by the Court.
Judge Patti’s decision to allow Luxshare limited
discovery became final on July 1, 2021 when the
Court overruled ZF US’s objections to the order. (ECF
No. 29.) As detailed above, the Court is denying ZF
US’s motion to stay the order. ZF US does not offer
any real reason why the motion to compel should not
be granted beyond reiterating arguments that the
Court has already addressed and rejected in this
opinion and previous opinions. Nor can it. Luxshare
is entitled to discovery under the Court’s July 1 order
and so the motion to compel that discovery will be
granted.
But the Court appreciates that ZF US has also
filed a motion to stay with the Sixth Circuit. And ZF
US represents that it has “engaged in good-faith
efforts to collect responsive documents to be prepared
to expeditiously produce these documents.” (ECF No.
36, PageID.841.) So if the Sixth Circuit denies the
motion for stay or dismisses the appeal, ZF US will
have 14 days from either of those events to produce
the discovery.

69a
In its motion to compel, Luxshare also requests the
costs and attorney’s fees for its motion. (ECF No. 31,
PageID.759.) Luxshare argues that this request is
justified under Fed. R. Civ. P. 37(b)(2) because ZF US
“fail[ed] to obey an order to provide or permit
discovery[.]” Rule 37(b)(2) also states that attorney’s
fees and expenses are justified “unless the failure was
substantially justified or other circumstances make
an award of expenses unjust.” Here, an award of fees
is not warranted because ZF US communicated to
Luxshare shortly after the Court’s July 1 order that it
intended to appeal the decision and seek a stay. And
there was some legal basis for ZF US to appeal and
seek a stay given the state of the law in the Sixth
Circuit and the fact that the issue is pending before
the Supreme Court. So ZF US was substantially
justified in failing to comply with the order while it
prepared and promptly filed its motion to stay and
notice of appeal.
III.
For the reasons stated above, the Court DENIES
ZF US’s motion for a stay (ECF No. 30). The Court
GRANTS Luxshare’s motion to compel (ECF No. 31)
and orders ZF US to comply with the subpoenas and
produce the discovery materials as directed in the
Court’s previous order (ECF No. 26) within 14 days of
an order by the Sixth Circuit either denying ZF US’s
motion to stay or dismissing the appeal.
SO ORDERED.
Dated: August 17, 2021
s/ Laurie J. Michelson
LAURIE J. MICHELSON
UNITED STATES
DISTRICT JUDGE

70a
28 U.S.C. § 1782(a)
§ 1782. Assistance to foreign and international
tribunals and to litigants before such
tribunals
(a) The district court of the district in which a
person resides or is found may order him to give his
testimony or statement or to produce a document or
other thing for use in a proceeding in a foreign or
international
tribunal,
including
criminal
investigations conducted before formal accusation.
The order may be made pursuant to a letter rogatory
issued, or request made, by a foreign or international
tribunal or upon the application of any interested
person and may direct that the testimony or
statement be given, or the document or other thing be
produced, before a person appointed by the court. By
virtue of his appointment, the person appointed has
power to administer any necessary oath and take the
testimony or statement. The order may prescribe the
practice and procedure, which may be in whole or part
the practice and procedure of the foreign country or
the international tribunal, for taking the testimony or
statement or producing the document or other thing.
To the extent that the order does not prescribe
otherwise, the testimony or statement shall be taken,
and the document or other thing produced, in
accordance with the Federal Rules of Civil Procedure.
A person may not be compelled to give his
testimony or statement or to produce a document or
other thing in violation of any legally applicable
privilege.
***

